DoDIG-2012-003                         October 18, 2011




     Review of Matters Related to the Sexual Assault of
    Lance Corporal Maria Lauterbach, U.S. Marine Corps
DoDIG-2012-003



Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight, Assistant Inspector General for Investigative Policy and Oversight, prepared
this report. Copies are available at http://www.dodig.mil. For questions about this
report, contact Mr John Perryman, Director of Oversight, john.perryman@dodig.mil.

Suggestions for Evaluations
To suggest ideas for or to request future reviews, contact the Office of the Assistant Inspector
General for Investigative Policy and Oversight at (703) 604-8709 (DSN 664-8709) or fax
(703) 604-8720. Ideas and requests can also be mailed to:

                          Office of the Assistant Inspector General
                           for Investigative Policy and Oversight
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 1056)
                                 Arlington, VA 22202-4704




Acronyms
CO                      Commanding Officer
CMG                     Case Management Group
IA                      Investigative Action Report
NCIS                    Naval Criminal Investigative Service
OIC                     Officer-In-Charge
PDUSD(P&R)              Principal Deputy Under Secretary of Defense (Personnel and Readiness)
ROI                     Report of Investigation
SAPR                    Sexual Assault Prevention and Response
SARC                    Sexual Assault Response Coordinator
UCMJ                    Uniform Code of Military Justice
UVA                     Uniformed Victim Advocate
VA                      Victim Advocate
DoDIG-2012-003




                                                  TABLE OF CONTENTS

I.    INTRODUCTION AND SUMMARY ........................................................................ 1
II. BACKGROUND ......................................................................................................... 2
III. SCOPE ......................................................................................................................... 3
IV. FINDINGS AND ANALYSIS .................................................................................... 4
    1. Did Responsible Officials Comply with Applicable Requirements in
       Responding to LCpl Lauterbach’s Sexual Assault Complaint? ............................. 4
           a. NCIS Investigation ....................................................................................................... 4
                Standards ........................................................................................................... 4
                Facts .................................................................................................................. 4
                Discussion ......................................................................................................... 6
           b. Sexual Assault Response Program Officials .............................................................. 12
                Standards ......................................................................................................... 13
                Facts ................................................................................................................ 13
                Discussion
           c. Command Officials .................................................................................................... 17
             Standards ......................................................................................................... 18
             Facts ................................................................................................................ 18
             Discussion…………………………………………………………………….20
       2. Did Responsible Officials Respond Adequately to Events Following the
          Sexual Assault Complaint to Ensure LCpl Lauterbach’s Safety and Well-
          Being?.....................................................................................................................21
             Standards……………………………………………………………………....21
             Facts…………………………………………………………………………...21
             Discussion……………………………………………………………………..22
V. CONCLUSIONS. .................................................................................................... ..22
VI. RECOMMENDATIONS .......................................................................................... .23

VII. MANAGEMENT COMMENTS……………………………………………………23

Appendix A. Significant Investigative Events…………………………………………...26
Appendix B. Standards…………………………………………………………………...31
Appendix C. Management Comments…………………………………………………...46
DoDIG-2012-003


REVIEW OF MATTERS RELATED TO THE SEXUAL ASSAULT
OF LANCE CORPORAL MARIA LAUTERBACH, U.S. MARINE
                    CORPS

I.     INTRODUCTION AND SUMMARY
This report responds to an August 7, 2008, request from the Principal Deputy Under Secretary of
Defense (Personnel and Readiness) (PDUSD (P&R). The PDUSD (P&R) requested we review
command and other responses to the rape complaint of Lance Corporal (LCpl) Maria Lauterbach,
assigned to Combat Logistics Regiment 27, 2d Marine Logistics Group, II Marine Expeditionary
Force, (II MEF) Camp Lejeune, N.C. We focused on the following specific questions:

       •   Did responsible officials comply with requirements in responding to
           LCpl Lauterbach's sexual assault complaint?

       •   Did responsible officials respond adequately to events following the sexual assault
           complaint to ensure LCpl Lauterbach's safety and well-being?

We reviewed the facts and circumstances involved in responses to the rape complaint and the
Naval Criminal Investigative Service (NCIS) rape investigation, and coordinated with the
Onslow County, N.C., Sheriff’s Office, and the District Attorney’s Office for that jurisdiction.
We also interviewed Marines, Camp Lejeune Sexual Assault Prevention and Response Program
(SAPR) personnel, command officials, civilian police officers and prosecutors, NCIS agents and
supervisors, and others with knowledge about this matter.

We found NCIS failed to conduct the criminal investigation into LCpl Lauterbach’s rape
complaint in accordance with DoD, DoN and NCIS standards. Overall, the NCIS investigation
was not thorough, was not conducted in a timely manner, and logical investigative steps were not
completed. Witness interviews were not thorough and in some instances not conducted, the
accused’s alibis for the dates LCpl Lauterbach reported the sexual assault occurred were not
investigated, and the reported crime scenes were not examined. Although both Headquarters and
local NCIS senior leaders were aware of deficiencies with the rape investigation, they took no
corrective action in regard to the investigative failures.

We also found the Sexual Assault Prevention and Response Program (SAPR) response to LCpl
Lauterbach’s rape complaint was inadequate. LCpl Lauterbach’s rape incident information was
not entered into the Sexual Assault Incident Reporting Database until 6 months after her rape
complaint, the Camp Lejeune installation Sexual Assault Case Management Group did not
function in accordance with policy, and the 2d Marine Logistics Group Command Sexual
Assault Response Coordinator did not actively participate in the Sexual Assault Case
Management Group meetings.

We concluded overall, command officials at the Combat Logistics Regiment 27 responded
inadequately to LCpl Lauterbach’s sexual assault complaint. They assigned a Uniformed Victim
Advocate (UVA), implemented Military Protection Orders (MPO), ensured NCIS was notified,
and ensured LCpl Lauterbach sought medical attention. They did not, however, remain engaged

                                                1
DoDIG-2012-003


with LCpl Lauterbach and monitor her well-being throughout the sexual assault investigative
process.

We recommend the Secretary of the Navy take corrective action, as necessary, with respect to
officials whom we identified as accountable for the regulatory violations and procedural
deficiencies described in this review.

This report sets forth our findings and conclusions.

II.    BACKGROUND
On May 11, 2007, LCpl Lauterbach told her Officer-in-Charge (OIC) that Corporal Cesar
Laurean, a senior marine in her immediate chain of command, had raped her on two occasions.
According to the report, the first incident occurred in late March 2007, while Laurean was the
Duty Noncommissioned Officer assigned at her barracks, and the second occurred approximately
2 weeks later. The unit Duty Logbook showed Laurean was the assigned duty officer at LCpl
Lauterbach’s barracks during the evening on March 25-26, 2007. Based on the complaint, the
second event would have occurred about 2 weeks later, on or about April 9, 2007. Laurean
(generally referred to as “the accused” in this report) was never charged in connection with the
rape report, but was subsequently charged and convicted of murdering LCpl Lauterbach and
sentenced to life in prison.

Key events in the case are summarized below and detailed in Appendix A.

       May 11, 2007. Upon receiving the sexual assault complaint, the OIC assigned a UVA
       who explained the sexual assault and victim advocate programs to LCpl Lauterbach and
       accompanied her initially to the Marine Corps Criminal Investigations Division and then
       to the local NCIS office where she was interviewed. The UVA also accompanied LCpl
       Lauterbach to the installation Family Counseling Center to obtain counseling services.
       The OIC ordered the accused to cease contact with LCpl Lauterbach.

       May 18, 2007. NCIS re-interviewed LCpl Lauterbach and interviewed the accused.

       May 24, 2007. The Regimental Commander issued a written Military Protection Order
       (MPO) directing the accused to stay at least 1,000 feet away from LCpl Lauterbach.
       Three additional MPOs were issued to the accused through January 2008, and the
       command authorized LCpl Lauterbach to not attend various unit formations and functions
       if there was a chance the accused would attend. No one reported a MPO violation.

       June 27, 2007. A troop medical clinic examination determined LCpl Lauterbach was
       pregnant. She went to NCIS for another interview and said the pregnancy resulted from
       the accused raping her.

       October 18, 2007. NCIS sent an interim Report of Investigation (ROI) to command and
       legal officials. The Trial Counsel received the interim ROI, and after reviewing it, asked




                                                 2
DoDIG-2012-003


         NCIS for additional investigative work. Additionally, the Trial Counsel began interviews
         to gather evidence for an Article 32 hearing. 1

         November 27, 2007. LCpl Lauterbach told the Trial Counsel she no longer believed the
         accused was her unborn child’s father, citing a miscalculation in the baby’s due date.
         The Trial Counsel and chain of command continued plans for an Article 32 hearing.

         December 14, 2007. The unit held its annual Christmas party but LCpl Lauterbach did
         not attend. She was last seen at approximately 3:00 p.m.

         December 17, 2007. LCpl Lauterbach did not report for duty on the Monday following
         the Friday Christmas party, and her command listed her status as “unauthorized absence.”

         January 9, 2008. NCIS received information concerning LCpl Lauterbach from the
         Onslow County, NC, Sheriff’s office and initiated a missing person investigation. The
         Onslow County Sheriff’s office informed NCIS about various factors, including: an
         unidentified male had made an automated teller machine withdrawal from LCpl
         Lauterbach’s bank account; an unused bus ticket had been purchased in LCpl
         Lauterbach’s name; LCpl Lauterbach’s cell phone had been found on the highway; and
         LCpl Lauterbach’s car had been located at a GreyHound bus station.

         January 12, 2008. LCpl Lauterbach's remains were found buried in a shallow grave at
         the accused's off-base residence in Jacksonville, NC. The state of North Carolina
         subsequently charged the accused with the murder, and he fled to Mexico.

         August 24, 2010. After extradition from Mexico and a civilian trial in North Carolina,
         the accused was convicted of murdering LCpl Lauterbach, as well as theft and fraud
         related to using her automated teller machine card.

We initiated our review in September 2008. However, in November 2008, North Carolina
prosecutorial and law enforcement officials requested we suspend our fieldwork until they
completed the criminal trial process. We re-started our review in September 2010.

III. SCOPE AND METHODOLOGY
Our review focused on whether responsible officials, including the chain of command, criminal
investigators, victim advocates, victim and witness program representatives, and SAPR officials,
complied with DoD, Navy, and Marine Corps requirements in responding to LCpl Lauterbach’s
sexual assault complaint. Additionally, we assessed their actions following the sexual assault
complaint to determine whether they satisfied requirements to protect LCpl Lauterbach’s safety
and well-being.
1
    The Uniform Code of Military Justice (UCMJ) (10 U.S.C. 801, et seq.) prescribes different legal venues for
    dealing with military infractions, depending on the severity. General courts-martial are prescribed for the most
    serious infractions. UCMJ Article 32, Investigation, (10 U.S.C.), Section VII ("Trial Procedure"), provides “. . .
    no charge or specification may be referred to a general court-martial for trial until a thorough and impartial
    investigation of all the matters set forth therein has been made.” The investigation is conducted as an Article 32
    hearing, which is similar to a preliminary hearing in civilian law, to determine whether sufficient evidence exists
    to warrant court-martial.

                                                           3
DoDIG-2012-003



We interviewed 55 witnesses, including NCIS special agents and supervisors, LCpl Lauterbach’s
chain of command and fellow Marines, Camp Lejuene SAPR and mental health officials,
installation and unit victim advocates, and other witnesses. We also interviewed Mrs. Mary
Lauterbach, the victim’s mother. We attempted to interview the accused but coordination efforts
with his appellate attorney were unsuccessful. In addition, we reviewed the NCIS and Onslow
County, NC, investigation files, as well as relevant e-mail messages and other documents related
to the NCIS investigation. Finally, we reviewed and assessed compliance with DoD, Navy and
Marine Corps policies and requirements. The policies and requirements are listed in Appendix
B.

IV.    FINDINGS AND ANALYSIS

       1. Did Responsible Officials Comply with Requirements in
          Responding to LCpl Lauterbach’s Sexual Assault Complaint?
       a. NCIS Investigation
We examined the NCIS investigation, analyzed it against standards, and identified both
substantive and procedural deficiencies. We found the NCIS case agent and supervisory agents
did not conduct the criminal investigation diligently, timely, or completely and logical
investigative steps were not completed. We describe significant deficiencies below.

           Standards
Policy and requirements are listed in Appendix B. Individual requirements are cited and
discussed throughout this section.

           Facts
On May 11, 2007, LCpl Maria Lauterbach’s friends told her OIC that LCpl Lauterbach said she
had been sexually assaulted. The OIC talked to LCpl Lauterbach and immediately assigned a
UVA to assist LCpl Lauterbach. The UVA and LCpl Lauterbach then went to the Marine Corps
Criminal Investigation Division to report the sexual assault. After hearing the complaint, the
Marine Corps Criminal Investigation Division investigator notified a supervisory agent at NCIS
Camp Lejeune, NC, that LCpl Lauterbach had reported being sexually assaulted on two
occasions, and had accused an individual. The supervisory agent assumed investigative
jurisdiction for the complaint and assigned a case agent to investigate. The same day, the UVA
accompanied LCpl Lauterbach to the NCIS office for an interview.

LCpl Lauterbach told the case agent she and the accused had sexual intercourse on two
occasions. According to her prepared statement, she said she did not want to have sexual
intercourse with the accused and felt she had been raped. LCpl Lauterbach said the first incident
occurred in her barracks room one night in late March 2007, while the accused was assigned as
the duty officer for the barracks, and the second incident occurred approximately 2 weeks later in
the OIC’s private office bathroom at the Group Consolidated Administration Center where both
LCpl Lauterbach and the accused worked. Subsequent to the interview, the case agent prepared
a typed, sworn statement, but LCpl Lauterbach did not sign it that day.

                                                4
DoDIG-2012-003



On May 11, 2007, the case agent also interviewed the OIC, who furnished background
information on both LCpl Lauterbach and the accused, and named other individuals with
possible knowledge about the rape complaint. A week later, on May 18, 2007, the case agent re-
interviewed LCpl Lauterbach, incorporated information from that interview into the May 11,
2007, interview statement, and had her sign the statement.

On May 18, 2007, the case agent also interviewed the accused. The accused denied any sexual
contact with LCpl Lauterbach and agreed to take a polygraph examination. He also presented
two alibis covering the approximate times when LCpl Lauterbach said he raped her, and named
other witnesses with possible knowledge of the complaint. He declined to sign a written
statement, but told the case agent he would complete one on his own and provide it to NClS at
another time. When contacted on May 22, 2007, the accused told the case agent he had sought
counsel. The accused said his counsel told him not to provide a statement, submit to polygraph
examination, or participate in further interviews.

In mid-May 2007, LCpl Lauterbach’s UVA telephoned the case agent reporting damage to LCpl
Lauterbach's automobile. The UVA said the vehicle was “keyed,” leaving scratches. According
to the UVA, the case agent told her "vandalism. . . did not rise to the level of an NClS
investigation" and advised her to report the incident to the Provost Marshal's Office, if LCpl
Lauterbach needed a report for her insurance company. The case agent did not pursue the
incident separately or in connection with the rape complaints.

About 2 weeks later, on May 31, 2007, the UVA again telephoned the case agent reporting
someone had punched LCpl Lauterbach in the face. The UVA told the case agent LCpl
Lauterbach came to her office with bruises on her face and said someone punched her while in
the parking lot outside her barracks. The case agent interviewed LCpl Lauterbach. She said an
unknown assailant who had called her by her first name before the assault, had punched her in
the face causing bruising and swelling to her left jaw.

LCpl Lauterbach described the assailant and named a person (not the accused) who she said fit
the description. She also identified a witness who she had told about the assault the day it
occurred, and another witness she had told about the assault the following day. Following the
interview, the case agent sketched and photographed the parking lot. The case agent did not
investigate the physical assault complaint further, and did not investigate the sexual assault
complaint further until June 27, 2007, about a month later.

On June 27, 2007, LCpl Lauterbach told the case agent she was pregnant. The case agent had
her provide another statement. In her statement, LCpl Lauterbach acknowledged having
consensual sex with her boyfriend 4-5 weeks after her sexual assault complaint, but thought the
accused fathered the baby during the rapes she reported.

No further investigative activity occurred until December 7, 2007, after the Trial Counsel
requested that the case agent conduct additional investigative activity in preparation for the
Article 32 hearing.

A more detailed summary of investigative activity is at Appendix A.
                                                 5
DoDIG-2012-003


             Discussion
The case agent and supervisory agents did not comply with NCIS criminal investigation
requirements. We identified various deficiencies, as described below.

Witness Interviews. The NCIS Investigative Manual 2 requires investigators to interview the
victim and any witness to establish whether a sexual assault occurred. For approximately
5 months after receiving the complaint, the case agent interviewed two witnesses, but not the
six additional witnesses whom LCpl Lauterbach, the OIC, and the accused had identified as
persons with possible relevant information.

On May 11, 2007, the case agent interviewed LCpl Lauterbach and subsequently prepared a
written interview statement. The statement omitted pertinent information LCpl Lauterbach
provided such as the suspect’s actions prior to the sexual assault, as well as witnesses
LCpl Lauterbach named as possibly having knowledge about the incidents. Specifically, the
statement did not include the following information that was included in the case agent’s
interview notes:

             . . . Cpl. . . (name redacted) - friend of hers, knows about the rape”. “PFC
             (name redacted). . . mentioned Cpl (the accused) made advances to
             another female Marine in GCAC. Not sure but might be. . . (sp?) works in
             deployed admin”. Other names: PFC (name redacted). . . and Sgt (name
             redacted). . .

During interviews the case agent conducted on May 11, 2007; May 18, 2007, May 31, 2007; and
June 27, 2007, the interviewees identified eight witnesses with possible knowledge or relevant
information. The case agent completed one witness interview on June 27, 2007, two witness
interviews on December 7, 2007, one witness interview on January 16, 2008, and one witness
interview on May 13, 2008 (5 total), and never interviewed the remaining 3 potential witnesses.

During our interview, the case agent told us she could not explain why some witness interviews
took months and others were never conducted. She admitted she “could have done a better job”
investigating the case, but said she did not believe her actions contributed to LCpl Lauterbach’s
death. Whatever the reason, not conducting witness interviews, especially in a violent crime
investigation was an investigative deficiency that could have degraded the ability to resolve the
complaint.

Crime Scene Investigation. The NCIS Investigative Manual requires a crime scene
examination, without regard to whether the crime is reported immediately or after-the-fact. A
crime scene examination includes visiting, sketching and photographing the scene, and
canvassing the area to identify and interview possible witnesses. If a crime scene examination is
not conducted, the investigator must document the reason in the ROI. In this case, the case agent
did not perform a crime scene investigation at either location where the sexual assaults

2
    NCIS investigative policy is contained in two manuals - NCIS-1, “Manual for Administration” and NCIS-3,
    “Manual for Investigations.” For simplicity, we refer to the NCIS Investigative Manual or NCIS investigative
    policy generally when referring to requirements in either manual.

                                                         6
DoDIG-2012-003


reportedly occurred, and did not document a reason for either omission in the ROI. On
interview, the case agent could not explain the deficiencies. Whatever the reason, the
investigative deficiency could have degraded the ability to resolve a violent crime complaint.

Alibi Investigation. The NCIS Investigative Manual requires the agent “test the validity of a
suspect's alibi,” investigating as necessary to corroborate or refute the alibi. In this case, the case
agent did not pursue investigative leads to corroborate or refute the accused’s alibi claims. In
fact, the case agent did not even obtain details related to his alibis.

LCpl Lauterbach said the first sexual assault occurred sometime in March in her barracks room
in Building HP 308, while the accused was the assigned “Duty Non-Commissioned Officer (duty
officer) .” 3 During interrogation on May 18, 2007, the accused told the case agent he was not
present at the barracks when the incident reportedly occurred. He said he went home the night
he was supposedly on duty in March 2007, and had no contact with LCpl Lauterbach.

Based on the unit duty roster, the accused was scheduled as duty officer at LCpl Lauterbach’s
barracks during the evening on March 25-26, 2007. 4 Based on entries in the Duty Logbook 5 for
the barracks, someone recorded the initials “CAL” (the accused’s initials) in the logbook when
reporting for duty at 11:55 p.m. on March 26, 2007, an additional 30 times during the night when
security patrols were completed, and upon being relieved from duty at 7:30 a.m. on March 27,
2007. In addition, during this time, the accused was in contact with at least two individuals, the
person he relieved upon reporting for duty and the person who relieved him the following
morning. In addition, the “Assistant Duty Non-Commissioned Officer was on duty at the
location, within the same timeframe and initialed the same logbook.” All three people’s names
and ranks were identified in the logbook.

The case agent did not interview anyone at the accused’s duty station to determine whether he
was there when LCpl Lauterbach reported she was raped. In addition, the case agent did not
have an explanation for not interviewing alibi witnesses. Further, she waited 7 months after
LCPL Lauterbach reported the sexual assault to retrieve the duty log records for review, and then
only at the Trial Counsel’s request.

Based on determining when the accused was on duty at LCpl Lauterbach’s barracks and her
report as to when the second sexual assault occurred (2 weeks later), we determined the second
sexual assault occurred on or about April 9, 2007. During the NCIS interrogation on May 18,
2007, the accused told the case agent he was on emergency leave for a week beginning
approximately April 7, 2007. However, according to his leave and earning statements, the
accused was on emergency leave from April 30, 2007, to May 5, 2007, well after the date the

3
    A Non-Commissioned Officer assigned to duty in charge of a security watch.
4
    Although the duty roster shows the accused was scheduled for duty on March 25, 2007, the duty logs show he
    actually performed duty March 26-27, 2007.
5
    A chronological log maintained to ensure an accurate record of a period of time during which an individual is
    assigned specific, detailed responsibilities on a recurring basis and used to record circumstance of importance or
    interest.



                                                          7
DoDIG-2012-003


second rape was reported to have occurred. The case agent never reviewed the accused’s leave
records to validate the alibi and did not have an explanation for not doing so. These omissions were
contrary to NCIS policy.

Interview/Interrogation Documentation. The NCIS Investigative Manual requires “oral
statements of witnesses, including victims, or of an accused should be reduced to writing
immediately after the interview or interrogation.” According to the policy, whenever credible
information is developed that could be used in an administrative or judicial hearing, upon
concluding the interview, the individual should be asked to furnish a written statement,
preferably under oath. When a victim, witness, or suspect provides information, but not a
written statement, the policy requires documenting the information in a report, detailing the
information received, the “rights” notification given the individual, and why a written statement
was not executed. The policy also requires NCIS investigations to comply with the President’s
Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency Quality
Standards for Investigations, which require documenting investigative activities accurately and
completely.

The case agent told us she interviewed LCpl Lauterbach on May 11, 2007, and May 18, 2007.
However, the case agent did not complete an interview statement, notes, log entries, report, or
anything else detailing the May 18 interview. According to the case agent, the May 18 interview
involved follow-up questions concerning a November 2006 incident in which LCpl Lauterbach
was allegedly involved in misconduct, but the incident did not concern the sexual assault report.
She also said she combined all the information from the May 11 and 18 interviews in the
statement she prepared for the May 11, 2007, interview, but did not otherwise document the
May 18 information in her case file. She had LCpl Lauterbach sign the statement as if all the
information had been obtained on May 11, 2007. LCpl Lauterbach signed that statement on May
18. Both NCIS policy and the Quality Standards for Investigations required the case agent to
prepare individual statements documenting the individual interviews accurately reflecting when
the investigator obtained the information.

The case agent also interviewed LCpl Lauterbach’s OIC, who was also the accused’s OIC,
regarding LCpl Lauterbach's rape complaint. The interview occurred on May 11, 2007. The
case agent’s interview report prepared based on the interview contained only information about a
previous incident in which LCpl Lauterbach was accused of misconduct. Information regarding
what the OIC knew about LCpl Lauterbach’s rape complaint, and information about the accused
and possible witness names were omitted. Also omitted was information the OIC relayed about
the OIC’s bathroom where LCpl Lauterbach said the second rape occurred. The case agent told
us she asked the OIC about the bathroom, but excluded the information from her report. She
could not explain why she omitted such information from the interview report.
Interview/Interrogation Thoroughness. The NCIS Investigative Manual requires agents to
“. . . gather as much information as they can about the case before interviewing the victim. The
agents should contact personnel involved thus far in the investigation such as base police and
emergency response/medical personnel.” In this case, however, the case agent did not contact
the base police personnel involved to gather information before interviewing LCpl Lauterbach.
In fact, although provided the name and notes indicating an involvement in the case, the case


                                                 8
DoDIG-2012-003


agent did not interview the Marine Corps Criminal Investigation Division agent who received the
sexual assault complaint initially either before or after interviewing LCpl Lauterbach.

Property Damage. Secretary of the Navy Instruction (SECNAVINST) 5430.107, “Mission and
Functions of the Naval Criminal Investigative Service,” December 28, 2005, gives NCIS
discretion to decline a case for investigation. However, “. . . [i]f this occurs, NCIS shall
expeditiously inform the affected command or activity.”

In mid-May 2007, LCpl Lauterbach’s UVA telephoned the case agent reporting LCpl
Lauterbach's automobile had been damaged—“keyed,” leaving scratches. According to the
UVA, the case agent told her "vandalism. . . did not rise to the level of an NClS investigation"
and advised her to report the incident to the Provost Marshal's Office, if LCpl Lauterbach needed
a report for her insurance company.

Although required to do so, the case agent did not inform LCpl Lauterbach’s command NCIS
was not investigating the incident. In fact, she never interviewed LCpl Lauterbach about the
complaint, and told us she never saw a connection between the auto damage and rape complaint.
About 18 months later, on November 18, 2008, she prepared and included a report addressing the
damage report in the rape investigation file, but only after her then supervisory agent directed the
inclusion.

Physical Assault Complaint. The NCIS Investigative Manual requires agents interview and
take statements from witnesses, neighbors, persons first on the scene, and other persons in the
vicinity of the assault. Additionally, they must promptly notify the affected commanders of any
information or aspect of investigative activities indicating an actual or suspected threat to people.

On May 31, 2007, LCpl Lauterbach’s UVA told the case agent LCpl Lauterbach came to her
office with bruises on her face and said an unknown assailant punched her in the face the
previous night. LCpl Lauterbach said the incident happened in the parking lot as she returned to
her barracks. The UVA told us she immediately reported the incident to the case agent the same
day. According to the case agent’s notes, she interviewed LCpl Lauterbach the same day she
received the report. In her interview, LCpl Lauterbach described the assailant and named a
person she said fit the description.

 Although the case agent took LCpl Lauterbach’s statement and visited the location where the
incident reportedly occurred, she did not interview the person LCpl Lauterbach identified as
resembling the assailant, did not report the incident to LCpl Lauterbach’s commanders, did not
report the assailant’s description to base police/security or local law enforcement agencies.

 The case agent told us she did not interview the accused because LCpl Lauterbach said she
would have recognized the accused’s voice, but did not recognize the assailant’s voice.
Investigative thoroughness required the interview and additional investigative steps as necessary
to establish the accused’s whereabouts at the time, either eliminating him as a suspect or
determining if additional investigative steps were needed. The same investigative activity was
necessary to resolve the information concerning the person LCpl Lauterbach thought resembled
the assailant.

                                                  9
DoDIG-2012-003



We asked the case agent if LCpl Lauterbach had visible injuries when she interviewed her. The
case agent told us she could not confirm LCpl Lauterbach’s injuries. The UVA told us she saw
bruises on LCpl Lauterbach’s face and was present during the May 31 interview when
LCpl Lauterbach brought the injury to the case agent’s attention. LCpl Lauterbach named two
witnesses whom she said saw her shortly after the assault, and who should have been able to
verify her injuries. The case agent did not interview those witnesses.

Additionally, the case agent did not obtain witness statements or complete an investigative
activity report within 5 business days as required. In fact, the case agent did not report the
physical assault or any investigative activity related to the report for approximately 18 months
(November 18, 2008). She told us that in November 2008, her supervisor directed her to
complete an investigative activity report regarding the assault and to incorporate it into the
sexual assault investigation.

Investigative Timeliness. The NCIS Investigative Manual requires completing and reporting all
investigations as expeditiously as possible. The manual also requires “due diligence” and
timeliness in conducting and reporting investigations, providing “this is especially critical given
the impact investigations have on the lives of individuals and activities of organizations.” The
policy provides “[i]f the time of the offense cannot be fixed through questioning of the victim,
witnesses and suspect(s), the approximate time should be determined through circumstantial
evidence.”

In LCpl Lauterbach’s case, the case agent did not meet timeliness requirements in the rape,
physical assault, or vehicle damage complaints. The UVA reported the vehicle damage to the
case agent in “mid-May,” about 1 week after the sexual assault complaint. The UVA reported
the punching assault to the case agent on May 31, 2007, about 3 weeks after the sexual assault
complaint. The case agent did not prepare a report on either incident until November 18, 2008,
about 18 months after the incidents were reported.

The case agent told us she never connected the vehicle damage and physical assault complaints
to the rape investigation, but in November 2008, a supervisor told her to document the
complaints in the rape investigation. When interviewed, the supervisor did not recall such a
directive to the case agent.

ROI Completeness and Timeliness. The NCIS Investigative Manual requires the case agent
enter investigative data in NCIS reporting systems, from investigation initiation through closure,
and ensure complete and accurate data. Serious crimes (including rape complaints) are a
“Priority II” category, requiring opening an investigation and entering the data in NCIS reporting
systems within 3 business days after receiving credible information leading to the investigation.
An interim ROI is required within 60 calendar days after opening the investigation. After
opening the investigation, the NCIS process includes the following steps:

       •   The assigned case agent generates a “ROI (OPEN)” report and sends it electronically
           to the supervisory agent for approval.



                                                10
DoDIG-2012-003


       •   After approval, the supervisory agent forwards the “ROI (OPEN)”to NCIS
           management documenting the investigation has been received, accepted, and is
           ongoing—a “ROI (OPEN)” is used for internal NCIS tracking and notification; a
           “ROI (INTERIM)” is used to report investigative findings and developments to
           external organizations, e.g. chain of command and legal officials.

We examined the ROI events and sequences involved in LCpl Lauterbach’s sexual assault
complaint. We found no evidence the case agent generated a “ROI (OPEN)” and sent it
electronically to the supervisory agent for approval within 3 business days as required. In
addition, the supervisory agent did not forward a “ROI (OPEN)” to NCIS management as
required. The case agent told us she reminded her supervisor numerous times to forward the
report to NCIS management, but he did not. Her supervisor generally agreed, advising that he
did not comply with NCIS administrative requirements in this instance. A new supervisory
agent discovered the error and forwarded the report to NCIS management about 5 months later
on October 15, 2007. (Individual investigative activities are described in Appendix A.)

Although required, the case and supervisory agents also did not forward a “ROI (INTERIM)” to
the responsible commander and supporting legal advisor within 60 calendar days to notify them
about the ongoing NCIS criminal investigation. As a result, those officials never received the
official NCIS notification and did not have a written record for tracking investigations within
their responsibility. The omission also precluded the legal advisor from assisting with the
investigative strategy initially and preparing for possible prosecution.

For all practical purposes, LCpl Lauterbach’s rape complaint remained idle for almost 7 months
between May 18, 2007, and December 2007. After reviewing the NCIS interim report (dated
October 18, 2007), the Trial Counsel requested additional investigative activity, such as
verifying the accused’s alibis. The case agent began that investigative work in December 2007.

Based on our review, although the NCIS policy was clear, the agents involved in the
investigation did not ensure the sexual assault complaint was processed and reported completely
and timely. Opening and interim reports were not prepared and distributed as required. As a
result, required notifications to NCIS management and command officials took approximately
5 months.

Supervisory Case File Review. The NCIS Investigative Manual required the supervisory agent
to review the investigative case files for quality every 30 days. In addition, policy required the
supervisory agent to document the review on a preprinted review sheet or on bond paper, and
include the document in the investigative file. The supervisory agent was also required to record
his name and review date, together with any specific guidance for the case agent, in the case
file’s “Case Activity Record.”

The supervisory agent initially told us he reviewed all the case agent’s files including LCpl
Lauterbach’s complaint every 30 days as required. The supervisory agent later changed his
testimony based on our questioning. He told us he had periodic sessions with the case agent in
which he reviewed her assigned cases, as reflected in the NCIS electronic management system.
Although acknowledging LCpl Lauterbach’s investigation was not included in the electronic

                                                11
DoDIG-2012-003


system, he told us at the end of each case review session, he asked the case agent if she had any
additional cases not appearing in her case control printout, and she always told him she did not
have additional cases.

The supervisory agent said he never discussed LCpl Lauterbach’s case with the case agent
(although he initially received the complaint and assigned it to her), because it was not included
in the automated NCIS management system and the case agent never told him she was
investigating the case. The case agent, however, said she discussed LCpl Lauterbach’s case with
the supervisory agent a number of times and documented the discussions in emails and personal
notes, but not in the case file.

Victim Witness Assistance Program Information. Both DoD and NCIS policy required NCIS
agents, upon initiating the criminal investigation, to give LCpl Lauterbach a pamphlet (DD Form
2701) outlining her rights, as well as NCIS contact information for her to use in inquiring about
the investigation. We found NCIS did not comply with these requirements. The case agent did
not give LCpl Lauterbach the required pamphlet.

Case Status Updates. The NCIS Investigative Manual required NCIS representatives to give
both LCpl Lauterbach, and her command representatives monthly case status updates throughout
the criminal investigation. We did not find any instance in which the case agent or any other
NCIS representative provided monthly updates to either LCpl Lauterbach or command
representatives. In the October 18, 2007, interim ROI, the case agent reported giving LCpl
Lauterbach’s OIC a case status update on May 18, 2007. We could not validate this information.
The OIC told us the case agent interviewed her on May 11, 2007, regarding LCpl Lauterbach but
she never received a case status update because she never talked with the case agent again after
the initial interview. The case agent could not explain why she did not provide monthly case
status updates.

Corrective Action. Former NCIS leaders, Mr. Thomas Betro, the NCIS Director, and the local
NCIS office Special-Agent-In-Charge, were aware there were deficiencies in the rape
investigation before our review began in September 2008. During an interview in April 2011,
Mr. Betro told us he believed local NCIS supervisors had taken appropriate corrective measures
regarding personnel responsible for the deficiencies. We were unable to verify local NCIS
leaders took any action.

   b. Sexual Assault Response Program Officials
LCpl Lauterbach was assigned a UVA and a civilian Victim Advocate (VA) the same day she
reported being sexually assaulted. These victim advocates generally complied with governing
requirements, including completing a VA Sexual Assault Response Protocol Checklist and a VA
Job Description checklist.

We determined that except for two procedural steps, the victim advocates complied with
requirements. However, we also determined the Command and Installation Sexual Assault
Response Coordinators (SARC) did not comply with DoD, Navy, and Marine Corps guidance
regarding LCpl Lauterbach’s sexual assault complaint.


                                                12
DoDIG-2012-003


         Standards
The applicable standards are from DoD Directive (DoDD) 6495.01, “Sexual Assault Prevention
and Response Program,” October 6, 2005; DoD Instruction (DoDI) 6495.02, “Sexual Assault
Prevention and Response Program,” Operational Navy Instruction (OPNAVINST) 1752.1B,
“The Sexual Assault Victim Intervention (SAVI) Program,” December 29, 2006; and Marine
Corps Order (MCO) 1752.5, “Sexual Assault Prevention and Response Program,” February 05,
2008. Other relevant policy and requirement documents are listed in Appendix B. These
documents include various checklists that outline specific duties for UVAs and VAs. Individual
requirements are cited and discussed below.

         Facts
UVA and VA. UVAs and VAs are responsible for facilitating care for complainants under the
Sexual Assault Prevention and Response (SAPR) program. Both DoD and Marine Corps policy
include checklists to provide specific guidance regarding their roles and responsibilities in
assisting people who report sexual assaults.

 After reporting a sexual assault to her OIC on May 11, 2007, LCpl Lauterbach was assigned a
UVA trained in sexual assault and victim advocacy programs. According to the UVA, she
explained the programs to LCpl Lauterbach, including her report was “unrestricted” 6 because
she had reported the sexual assault to her OIC, and law enforcement would investigate the
complaint. The UVA then escorted LCpl Lauterbach to law enforcement.

The UVA later took LCpl Lauterbach to the Marine and Family Services, Marine Corps
Community Services, Family Counseling Center to assist in obtaining counseling services she
requested. LCpl Lauterbach also met with a civilian VA (USMC employee) and was again
briefed on the victim advocacy program. LCpl Lauterbach asked to retain her UVA instead of
being assigned a civilian VA. The chain of command, in coordination with SAPR personnel at
Camp Lejeune, approved this arrangement. 7 The UVA coordinated with LCpl Lauterbach’s
chain of command to have her reassigned to the same duty section as the UVA. The civilian VA
assisted LCpl Lauterbach with scheduling an appointment to see a mental health clinician on
May 14, 2007, but otherwise was not involved in the case.

Later in May 2007, LCpl Lauterbach told her UVA someone had damaged her car. That same
day, the UVA telephonically reported the damage to the NCIS case agent and contacted the
Command SARC and briefed him about the incident. The UVA told us that a couple of weeks
after reporting the sexual assault, LCpl Lauterbach also told her someone had punched her in the
face. The day the UVA received this information, she again contacted both the NCIS case agent
and the Command SARC. The UVA said she told the Command SARC she was concerned

6
    Per DoD Directive 6495.01, unrestricted reporting allows an individual to report the details of his/her sexual
    assault and receive medical treatment, counseling, and advocacy services, but the report triggers the official
    investigative process.
7
    According to SAPR program personnel, common practice was to assign VAs to sexual assault victims. UVAs
    were used primarily when military members deployed.

                                                          13
DoDIG-2012-003


about the two incidents, and felt they may have resulted from LCpl Lauterbach’s sexual assault
report.

The UVA told us that from May 11, 2007, until early September 2007, she had daily contact with
LCpl Lauterbach during the work week. She also stated that after moving to a new duty location
in September, she continued to meet with LCpl Lauterbach as needed.

However, the uniformed or civilian VA did not comply with the following procedural steps:

        •   Enter incident data in the Sexual Assault Incident Reporting Database (SAIRD) in a
            timely manner, as required.

        •   Attend the monthly Sexual Assault Case Management Group (CMG) meetings as
            required.

SAIRD is a central repository for sexual assault incident-based data maintained to enhance DoD
and Service capabilities, to analyze trends and respond to requests for data relating to sexually
based incidents. SAIRD contains information such as date of assault; victim information;
allegation; victim intervention; victim preferences; offender information; and disposition of
allegations.

When a sexual assault is reported at a Marine Corps installation with a Marine and Family
Services office, the civilian VA is required to enter the assault information into SAIRD within 30
days. Since Camp Lejeune had a Marine and Family Services Counseling Center, the UVA did
not have access to SAIRD and the civilian VA was responsible for the data entry. According to
guidance, the civilian VA should have inputted LCpl Lauterbach’s sexual assault information
into SAIRD not later than June 11, 2007. Our review of the SAIRD central database tracking
data revealed the civilian VA did not input LCpl Lauterbach’s sexual assault data into the
SAIRD database until November 23, 2007.

We asked the civilian VA why she did not enter LCpl Lauterbach’s data until 6 months after her
sexual assault report. The Civilian VA said she realized it was her responsibility to input LCpl
Lauterbach’s data into SAIRD, and could not explain the delay or what triggered her to enter the
data in November.

DoD, and Navy sexual assault policy required each installation to have a Sexual Assault CMG.
The group is chaired by the Installation Sexual Assault Response Coordinator (SARC) and is
required to meet monthly to review sexual assault cases. DoD Instruction (DoDI) 6495.02,
“Sexual Assault Prevention and Response Program,” states “CMG members shall consider and
implement short and long term measures to help facilitate and assure victims’ well-being and
recovery from the sexual assault.” CMG members include victim advocates for each ongoing
case, SARCs, NCIS representatives, medical personnel, mental health counselors, Staff Judge
Advocates, and the victims’ commanders.

DoD and Marine Corps sexual assault checklists require the UVA or VA to serve as a CMG
member and attend all group meetings involving their victims’ cases. We reviewed minutes from
the Camp Lejeune CMG meetings in August and October through December 2007, (no minutes
                                               14
DoDIG-2012-003


were available before August 2007 or for the September 2007 meeting). Based on our review
and witness testimony, neither advocate assigned to LCpl Lauterbach’s case attended the
monthly CMG meetings. When asked why they never attended the CMG meetings, the UVA
said she was never invited. The civilian VA could not recall why she never attended.

       Discussion

Marine Corps SAIRD user policy requires a UVA or VA who responds to a sexual assault to
input sexual assault incident data into SAIRD in a timely manner (30 days). In LCpl
Lauterbach’s case, the civilian VA was responsible for inputting the data. However, LCpl
Lauterbach’s sexual assault data was not input into SAIRD until 6 months after her sexual
assault report. We think entering LCpl Lauterbach’s data into SAIRD was an important step
because it alerts the Installation SARC to a new sexual assault case. The Installation SARC told
us he routinely queried SAIRD to obtain current sexual assault case listings before conducting
the monthly sexual assault CMG meetings. He told us he used the lists to ensure requisite
members were invited to attend and represent victim cases.

We concluded that because LCpl Lauterbach’s information was not in SAIRD, and her UVA or
civilian VA did not attend monthly sexual assault case management meetings, LCpl
Lauterbach’s case received no visibility at the CMG. Therefore, case management group
professionals did not review her case to help assure her well-being and recovery following the
sexual assault as required by DoDI 6495.02.

Command and Installation SARCs. Installation SARCs serve as the central contacts to oversee
sexual assault awareness, prevention, and response training and to ensure appropriate care is
coordinated and provided to sexual assault complainants. Command SARCs are responsible for
the detailed oversight and management of their respective commands’ sexual assault cases. The
2d Marine Logistics Group Command SARC (generally referred to as the Command SARC)
supported LCpl Lauterbach’s regiment. A review of II Marine Expeditionary Force and Marine
Corps Installation-East records and field interviews revealed that following LCpl Lauterbach’s
sexual assault complaint:

   •   The Command SARC did not ensure LCpl Lauterbach’s data was entered into SAIRD in
       a timely manner.

   •   The Command SARC did not actively participate as a CMG member and did not attend
       monthly CMG meetings as required.

   •   The Marine Corps Installation-East Installation SARC did not convene required monthly
       CMG meetings during the time LCpl Lauterbach’s sexual assault complaint was pending.

LCpl Lauterbach signed a Victim Reporting Preference Statement recognizing she was making
an unrestricted sexual assault report. The UVA told us she immediately provided a copy to the
Command SARC as required. In this regard the SAIRD User Manual provides:



                                               15
DoDIG-2012-003


       The responsibility of the SARC is to ensure that the UVA’s under their management are
       correctly inputting the required data into SAIRD and that incidents are not kept in Draft
       status for too long; approximately one month is sufficient for a UVA to gather and input
       the required data and have it submitted for acceptance by HQMC.

The Command SARC acknowledged that LCpl Lauterbach’s UVA informed him about the
sexual assault complaint. He also acknowledged his responsibility for ensuring the civilian VA
entered LCpl Lauterbach’s data into SAIRD within 30 days, which he did not do. As stated
earlier, the civilian VA ultimately entered LCpl Lauterbach’s data in SAIRD about 6 months
after the sexual assault complaint. The Command SARC could not recall why he did not ensure
the civilian VA entered LCpl Lauterbach’s data into SAIRD within 30 days.

As discussed earlier, DoD and Navy policy requires each installation to have a CMG which the
Installation SARC chairs. The CMG is required to review all unrestricted sexual assault reports
involving active duty victims to facilitate monthly victim updates, and ensure system
coordination, accountability, and victim access to quality services. CMG members are required
to consider and implement measures to facilitate and assure the victim’s well-being, and closely
monitor victim progress and recovery.

According to the Installation SARC, the CMG was not fully established during the May through
December 2007 timeframe when LCpl Lauterbach’s sexual assault complaint was pending. The
CMG commenced meeting sometime in 2006, and had periodic meetings but was not functioning
fully in accordance with DoD sexual assault policy until January 2010. The Installation SARC
told us there were many challenges in establishing the SAPR program at Camp Lejeune,
including frequent SARC and UVA rotational reassignments; lack of trained SARCs and UVAs;
and requirements to use an unfamiliar reporting database (SAIRD). He said CMG members
were expected to review each unrestricted sexual assault case during the CMG meeting. He also
said the reviews were supposed to “ensure sexual assault victims received the proper care and
services to which they were entitled, that things unfolded as they should systemically (no
supporting agency “disconnects,” no communication lapses); and that no victim was lost in the
system.”

We reviewed Marine Corps Community Services records showing case management meetings
were held in August, October, November and December 2007. Our interviews with SAPR
personnel suggested other monthly CMG meetings were held, but there was no documentation as
to what dates the meetings occurred. The data showed:

   •   August 28, 2007, the Installation SARC had a SARC meeting in which he discussed that
       after many starts and stops, it was imperative to stand up a working sexual assault CMG.
       It was agreed sexual assault CMG monthly meetings would convene on the last Tuesday
       of each month.

   •   October 2, 2007, the CMG met and discussed several unrestricted sexual assault cases;
       however, LCpl Lauterbach’s case was not discussed. LCpl Lauterbach’s Command
       SARC attended the meeting but said he was not ready to discuss his cases.


                                               16
DoDIG-2012-003


   •   November 27, 2007, the CMG met. The meeting notes did not reflect whether any
       unrestricted sexual assault cases were discussed. LCpl Lauterbach’s Command SARC
       did not attend the meeting.

   •   December 18, 2007, the CMG met and discussed open unrestricted sexual assault cases.
       LCpl Lauterbach’s case was not discussed. LCpl Lauterbach’s Command SARC did not
       attend the meeting.

       Discussion

We found the Command SARC did not ensure LCpl Lauterbach’s data was entered into SAIRD
in a timely manner. The civilian VA had 30 days to input LCpl Lauterbach’s sexual assault data
into SAIRD yet it was not entered until 6 months after her report. The Command SARC knew
LCpl Lauterbach reported being sexually assaulted, but he did not ensure her data was entered
into SAIRD. He could not explain why.

We also found the Command SARC never informed the Installation SARC about LCpl
Lauterbach’s case. We specifically note the Command SARC’s failure to inform the Installation
SARC about the UVA’s concerns when LCpl Lauterbach reported being physically assaulted and
when she reported property damage to her car just weeks after her sexual assault complaint. We
asked the Command SARC why he never reported the incidents or UVA concerns to the
Installation SARC. He told us there was no requirement for such reporting, and he thought NCIS
and LCpl Lauterbach’s command were handling issues related to the assaults. However, he
could not explain why he never discussed her case at the CMG. Consequently, LCpl Lauterbach
was never identified as a current victim, and her case was never discussed at any CMG meeting.
The Installation SARC told us he did not know about LCpl Lauterbach’s case until after she was
murdered.

We concluded the Installation and Command SARCs did not comply with standards in
responding to LCpl Lauterbach’s sexual assault complaint and, therefore, her safety, well-being
and recovery were not monitored as required. LCpl Lauterbach’s information was not entered in
SAIRD, her Command SARC did not actively participate in the CMG, and the CMG was not
functioning in accordance with policy. As a result, the professionals who met to review sexual
assault cases were unable to facilitate LCpl Lauterbach’s proper care and services or assure her
safety, well-being and recovery from the sexual assault.

   c. Command Officials
We concluded overall, responsible Combat Logistics Regiment command officials responded
inadequately to LCpl Lauterbach’s sexual assault complaint. They assigned the victim a UVA,
implemented MPOs, ensured NCIS was notified, and ensured the victim sought medical
attention. However, they failed to remain engaged with the victim and monitor her well-being
throughout the sexual assault investigative process.




                                               17
DoDIG-2012-003


           Standards
DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,” June 23, 2006.
Attachment 1 to Enclosure 5, “Commanders Checklist for Unrestricted Reports of Sexual
Assault,” provides guidance for commanders’ response to a sexual assault report. Office of the
Chief of Naval Operations Instruction (OPNAVINST) 1752.1B, “Sexual Assault Victim
Intervention (SAVI) Program,” December 29, 2006, includes a commander’s checklist that
prescribes elements for meeting command SAVI Program requirements and ensuring effective
command prevention and response to sexual assault incidents. Other relevant policy and
requirements are listed in Appendix B. Individual requirements are cited and discussed
throughout this section.

           Facts

On May 11, 2007, LCpl Lauterbach told her OIC the accused sexually assaulted her. In response
to LCpl Lauterbach’s complaint, the OIC immediately assigned a UVA, who accompanied LCpl
Lauterbach to NCIS and the family counseling center.

LCpl Lauterbach’s OIC told us upon receiving the sexual assault complaint on May 11, 2007,
she issued a verbal order to the accused to cease all contact with LCpl Lauterbach and to remain
1000 feet away from her. LCpl Lauterbach’s Regimental Commander then issued an initial
MPO on May 24, 2007, to remain in effect for 90 days (until August 24, 2007). As described in
the MPO, the basis was “allegations of rape, as well as a pending investigation.”

The Regimental Commander issued a second 90-day MPO on June 25, 2007, to remain in effect
until September 24, 2007; a third 90-day MPO on September 20, 2007, to remain in effect until
December 23, 2007; and a fourth 90-day MPO on January 8, 2008, to remain in effect until
March 28, 2008.

The Regimental Commander said he ensured both LCpl Lauterbach and the accused understood
the MPO was applicable on base as well as off base in the civilian community. LCpl
Lauterbach’s company commander advised LCpl Lauterbach to report immediately if the
accused violated the MPO, and excused her from events where the accused might be present.
Additionally, the chain of command honored LCpl Lauterbach’s request to be reassigned to
another duty location. This duty location was geographically separated from the accused and was
the same as her UVA’s duty location.

DoDI 6495.2 and MCO 1752.5 both include a “Commander’s Checklist” to assist in processing
sexual assault complaints. Both checklists specify commander’s responsibilities including the
following 7 items:

       (1) Ensure the SARC is notified immediately” OR “Activate the on-call VA and request
           immediate assistance. The VA will ensure the victim understands the medical,
           investigative, and legal process, and is advised of their victim rights, even if the
           victim ultimately declines ongoing VA support.


                                               18
DoDIG-2012-003



When LCpl Lauterbach reported being sexually assaulted, the OIC notified the UVA. The
response was immediate and ensured LCpl Lauterbach’s initial needs were addressed.

The UVA briefed her on victim rights and told her that her report would be referred to NCIS for
a criminal investigation. Based on our review, the UVA provided immediate and ongoing
intervention and support to LCpl Lauterbach.

       (2) Ensure the victim understands the availability of victim advocacy and the benefits of
           accepting advocacy and support

Based on our review, we determined the UVA informed LCpl Lauterbach about her rights
regarding unrestricted reporting and LCpl Lauterbach knew about available advocacy services.
LCpl Lauterbach used these services through continued contact with her UVA and attendance at
mental health counseling sessions.

       (3) Determine the need for temporary reassignment to another unit, duty location, or
           living quarters on the installation of the victim or the alleged offender being
           investigated, working with the alleged offender’s commander if different than the
           victim’s commander, until there is a final legal disposition of the sexual assault
           allegation, and/or the victim is no longer in danger. To the extent practicable,
           consider the desires of the victim when making any reassignment determinations


LCpl Lauterbach’s UVA requested LCpl Lauterbach’s reassignment to a new duty location, and
the chain of command approved the request. The reassignment allowed LCpl Lauterbach’s UVA
to have constant contact with her and, since LCpl Lauterbach and the accused had worked in the
same section before the reassignment, it separated them to facilitate compliance with the MPOs.


       (4) Ensure the victim understands the availability of other referral
           organizations staffed with personnel who can explain the medical,
           investigative, and legal processes and advise the victim of his or her
           victim support rights

       (5) Emphasize to the victim the availability of additional avenues of support;
           refer to available counseling groups and other victim services

We asked the Regimental Commander and other members of LCpl Lauterbach’s chain of
command if they ever explained the medical and legal organizations available to support her, or
the legal and investigative processes she would encounter following the sexual assault report.
Neither the Regimental Commander nor anyone else in LCpl Lauterbach’s chain of command
could remember any such explanations. The Regimental Commander said the UVA told him she
briefed LCpl Lauterbach on these matters. We were unable to verify the UVA briefed LCpl
Lauterbach.

       (6) Attend the monthly case management meeting as appropriate

                                                19
DoDIG-2012-003


We reviewed minutes from the Camp Lejeune CMG meetings held on October 2, 2007,
November 27, 2007, and December 18, 2007. Neither the Regimental Commander nor LCpl
Lauterbach’s UVA attended these meetings. The Command SARC attended the October
meeting but did not discuss LCpl Lauterbach’s case. The Regimental Commander advised he
did not use the required checklist, and we did not find any records that he or a designee attended
the CMG meetings.

       (7) Ensure the victim receives monthly reports regarding the status of the
           sexual assault investigation from the date the investigation was initiated
           until there is a final disposition of the case

Additionally, the Regimental Commander said he spoke with LCpl Lauterbach on only one
occasion. He said he asked her how she was doing, and told her the case was still being
investigated. Otherwise, he never updated her on the case status because he assumed others in
her command were doing so. The UVA was the only individual involved in the process who
updated LCpl Lauterbach as the investigation progressed. These updates were sporadic, however,
usually following the UVA calling the case agent for updated information.

       Discussion

When LCpl Lauterbach’s chain of command received the sexual assault report, they took
immediate action that complied with DoD and USMC requirements; however, evidence did not
indicate the responsible commander took appropriate follow-on actions.

The Regimental Commander was responsible for ensuring the items on the Commanders’
Checklist were adhered to because he told us his policy required sexual assault issues be handled
at the regimental level. The Regimental Commander told us he did not use the Commander’s
Checklist, did not attend monthly case management meetings, and did not update LCpl
Lauterbach on case status. Based on our review, LCpl Lauterbach’s access to the UVA and her
attendance at mental health counseling were the only indications she received any continuing
support.


           2. Did Responsible Officials Respond Adequately to Events Following
           the Sexual Assault Complaint to Ensure LCpl Lauterbach’s Safety and
           Well-Being?
We concluded Combat Logistics Regiment 27 command officials assured LCpl Lauterbach’s
safety immediately following the sexual assault complaint, but failed to remain engaged and
monitor her safety and well-being throughout the sexual assault investigation, and took no action
on two possibly related harassment incidents.

           Standards
DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,” June 23, 2006.
Attachment 1 to Enclosure 5, “Commanders Checklist for Unrestricted Reports of Sexual

                                                20
DoDIG-2012-003


Assault,” provides guidance for commanders’ response to a sexual assault report, including
actions to protect the victim’s safety and well-being. OPNAVINST 1752.1B, “Sexual Assault
Victim Intervention (SAVI) Program,” December 29, 2006, includes a commander’s checklist
that prescribes elements for meeting command SAVI Program requirements and ensuring
effective command prevention and response to sexual assault incidents. Other relevant policy
and requirements are listed in Appendix B. Individual requirements are cited and discussed
throughout this section.

           Facts

The Commander’s Checklist states the commander should:

       •    Ensure the physical safety of the victim--determine if the alleged offender is still
            nearby and if the victim desires or needs protection.”

       •     Determine if the victim desires or needs a “no contact” order or “Military Protective
            Order (MPO),” to be issued, particularly if the victim and the alleged offender are
            assigned to the same command, unit, duty location, or living quarters.

       •    Throughout the investigation, consult with the victim, and provide the victim
            appropriate emotional support resources.

       •    Continue to monitor the victim’s well-being.

       •    Ensure the victim receives monthly reports regarding the status of the sexual assault
            investigation from the date the investigation was initiated until there is a final
            disposition of the case.

When LCpl Lauterbach reported being sexually assaulted, her chain of command initially issued
both a verbal order and written MPO ordering the accused to cease contact and stay 1000 feet
away from her. The basis for the MPO was “allegations of rape, as well as a pending
investigation.” Testimony revealed it was standard practice to implement an MPO in a sexual
assault case.

The initial written MPO was issued May 24, 2007, and was effective for 90 days. According to
chain of command interviews, the accused received a copy but they were unsure whether LCpl
Lauterbach also received a copy. Based on our review, LCpl Lauterbach did receive a copy.

The MPOs were updated as follows: June 25, 2007, a second MPO was issued to remain in effect
for 90 days until September 24, 2007; September 20, 2007, a third MPO was issued to remain in
effect for 90 days until December 23, 2007; January 8, 2008, a fourth and final MPO was issued
to remain in effect for 90 days until March 28, 2008. According to the Regimental Commander,
the lapse in the MPO between December 24, 2007, and January 7, 2008, was due to the
Christmas holidays. Our review did not reveal any noncompliance with the MPOs.



                                                 21
DoDIG-2012-003


Shortly after reporting sexual assaults, LCpl Lauterbach reported her car had been “keyed” in
one incident, and an unknown assailant “punched” her in the face in a second incident.
According to LCpl Lauterbach’s UVA, she reported and encouraged LCpl Lauterbach to report
the keying and assault incidents to command officials and NCIS.

While the Regimental Commander acknowledged hearing about the additional incidents he made
no effort to monitor LCpl Lauterbach’s well-being. He told us NCIS had looked into both
incidents and were unable to link either incident to the original sexual assault complaint.
Therefore, he felt there was nothing else he could do.

       Discussion
Based on our interviews of LCpl Lauterbach’s chain of command and review of the sexual
assault investigation, LCpl Lauterbach’s physical safety immediately after the sexual assault
report was adequately addressed. A verbal protective order was imposed within 24 hours,
followed by four written MPOs which generally remained in effect through March 2008.

DoD, Navy and Marine Corps sexual assault policy required LCpl Lauterbach’s commander to
remain actively involved in the sexual assault complaint. We think this responsibility extended to
the two additional incidents in which LCpl Lauterbach may have been victimized. Additionally,
policy required the commander ensure LCpl Lauterbach was kept apprised on the case status, her
well-being was addressed, and she was provided the necessary advocacy services. We found no
evidence to indicate the Regimental Commander acted to comply with this policy, other than
immediately after LCpl Lauterbach made her sexual assault complaint.

We concluded the UVA was the only person routinely involved in the case who regularly
consulted with LCpl Lauterbach to monitor her well-being. However, following the UVA’s
reassignment in September 2007, her contact with LCpl Lauterbach was less frequent. Despite
information available to LCpl Lauterbach’s Regimental Commander regarding her continued
victimization, he failed to consult with her to monitor her well-being or ensure she received the
appropriate support.

V.     CONCLUSIONS

We concluded the NCIS criminal investigation into LCpl Lauterbach’s rape complaint was both
substantively and procedurally deficient. NCIS agents did not conduct the criminal investigation
diligently, timely, or completely, and logical investigative steps were not completed.

Camp Lejuene SAPR officials responded inadequately to LCpl Lauterbach’s rape complaint.
LCpl Lauterbach’s information was not entered in SAIRD, her Command SARC did not actively
participate in the CMG, and the CMG did not function in accordance with policy. Consequently,
the CMG, the group responsible for reviewing sexual assault cases, was unable to facilitate LCpl
Lauterbach’s care and services or assure her safety, well-being and recovery following the sexual
assault, principally because it did not know about it.



                                                22
DoDIG-2012-003


DoD, Navy and Marine Corps sexual assault policy required commanders at all levels to remain
actively involved to ensure LCpl Lauterbach was kept apprised on the investigation, her well-
being was addressed, and she was provided the needed advocacy services. We concluded
Combat Logistics Regiment 27 command officials assured LCpl Lauterbach’s safety
immediately following her sexual assault complaint, but failed to remain engaged and monitor
her safety and well-being throughout the sexual assault investigation.


VI.    RECOMMENDATION

We recommended the Secretary of the Navy take corrective action, as necessary, with respect to
officials whom we identified as accountable for the regulatory violations and procedural
deficiencies described in this review.


VII. MANAGEMENT COMMENTS
In response to the draft report, we received comments from the Principal Deputy Under
Secretary of Defense (Personnel and Readiness) (PDUSD (P&R), and the Secretary of the Navy
(SECNAV). The SECNAV response included enclosures from the NCIS, Navy Sexual Assault
Prevention and Response Office and the Marine Corps Staff Directors. (Appendix C).

The PDUSD (P&R) concurred with the recommendation in the draft report, and outlined
additional actions he would take to assess Navy compliance with DoD sexual assault policy.

Overall, the Navy concurred with our report and recommendation, advising it began many new
initiatives after the events described in the report. Recognizing these new initiatives were not
available when LCpl Lauterbach was murdered, which made her death even more tragic, the
Secretary of the Navy advised that the Navy’s progress in sexual assault prevention and response
will ensure other sailors and marines are not similarly victimized.

For example, the Secretary advised that shortly after assuming office in 2009, he established the
Department of Navy Sexual Assault Prevention and Response Office with a senior executive
head reporting directly to him, the only such arrangement in DoD. In addition, he noted the
Director, NCIS, had already ordered measures to assess further his agency’s personnel
shortcomings in LCpl Lauterbach’s case and determine whether adverse personnel action was
appropriate. He also advised the Director will correct expeditiously any remaining systemic
deficiencies identified in our report.

With respect to command officials, the Secretary stated that, in hindsight, command could have
paid more attention to its reporting responsibilities. On the other hand, he advised the immediate
responses (victim advocate, counselors, and command) to LCpl Lauterbach’s sexual assault
complaint were excellent, and she received continuing care from victim advocates. We agree.

Overall, the Navy’s comments on the draft report are fully responsive. In addition, the
continuing initiatives and actions described in the comments should help ensure similar

                                               23
DoDIG-2012-003


deficiencies do not occur in handling future sexual assault complaints. However, as the Director,
NCIS, stated in his comments on the draft report, “[c]learly corrective action is required in this
case, as both a means to affix individual accountability, but more importantly, as a method to
advance the quality of NCIS sexual assault response and investigative capability overall.”

Based on the above, we will not address individual comments in the Marine Corps comments,
even though some are based on inaccurately interpreting our individual findings and conclusions.
For example, the Marine Corps states:

           The draft report also cites that CLR-27 officials took no action on two
           possible related harassment incidents. Yet it also acknowledges that NCIS
           was unable to link either incident to the sexual assault complaint after
           looking into both incidents, and that the investigators informed the
           Regimental Commander that there was nothing else he could do. . . .

This statement is inaccurate. We did not acknowledge NCIS was unable to link either incident to
the sexual assault complaint; nor did we have any indication investigators informed the
Regimental Commander there was nothing else he could do. To the contrary, we faulted NCIS
investigative efforts related to reviewing the two possibly related incidents. In reality, those
investigative efforts were inadequate to determine if the incidents were related to the sexual
assault complaint. The Regimental Commander told us one of his staff members told him NCIS
was unable to link either incident to the original sexual assault complaint; so he did not pursue
the matter further. As evident in the report, our primary concerns about the command’s response
involved:

       •   Late data entry into the SAIRD system. The overall victim advocate responsibility
           was assigned to the military victim advocate (an exception to the general policy)
           while leaving data input responsibility with the civilian victim advocate. The civilian
           advocate told us she had the data input responsibility and she did ultimately satisfy
           that responsibility. Although we did not have specific facts showing a cause and
           effect relationship, it was clear the late data entry prevented management from
           receiving information they could have used to monitor LCpl Lauterbach’s sexual
           assault complaint.

       •   Although policy required monthly CMG meetings with all involved representatives to
           address each individual sexual assault complaint, that policy was not fully
           implemented until January 2010, well after LCpl Lauterbach’s sexual assault
           complaint. Even though three monthly meetings were conducted while the
           investigation was ongoing, LCpl Lauterbach’s case was not identified or discussed at
           any CMG meeting, contrary to policy requirements.

However, recognizing initial new policy implementation is not always perfect we did not
recommend specific personnel or other action to address these deficiencies. Instead, we
recommended the Secretary of the Navy take “necessary” corrective action against accountable
officials.



                                               24
DoDIG-2012-003


According to the Marine Corps comments, “. . . adverse action upon the persons identified in the
draft report is not warranted.” Since the Marine Corps apparently has determined, and the
Secretary of the Navy has accepted the position that actions are not appropriate against the
responsible command officials, our recommendation is satisfied as it pertains to the command
officials.




                                               25
DoDIG-2012-003


Appendix A. Significant Investigative Events
   Date          Elapsed Days                             Event
            Between Cumulative
             Events
On/or about     0           0  LCpl Maria Lauterbach, Combat Logistics Regiment 27,
03/26/07                       2D Marine Logistics Group, was allegedly sexually
                               assaulted in “HP 308” barracks, Camp Lejeune, while
                               the accused, Corporal Cesar Laurean, in her direct chain
                               of command, was the assigned “HP 308” barracks Duty
                               NCO from March 25, 2007 to March 26, 2007.
On/or about    14          14  Cpl Laurean allegedly sexually assaulted
04/09/07                       LCpl Lauterbach a second time in their OIC’s bathroom
                               at the Group Consolidated Administration Center. (Date
                               estimated from allegation and reviewing Lauterbach
                               statement of May 11, 2007).
05/11/07       32          46  At 0845, Marine Corps Criminal Investigation Division
                               investigator was notified in person about a rape at an
                               unknown location. Military police contacted
                               LCpl Lauterbach who stated she had been raped on two
                               occasions.
05/11/07        0          46  A Marine Corps Criminal Investigation Division
                               investigator notified a Supervisory Special Agent at
                               NCIS Camp Lejeune, NC, that LCpl Lauterbach had
                               reported being sexually assaulted on two occasions
                               between March 26, 2007, and April 9, 2007, and had
                               named a suspect in the complaint. NCIS assumed
                               jurisdiction for the complaint and assigned a case agent
                               to investigate.
05/11/07        0          46  A Uniformed Victim Advocate (UVA) accompanied
                               LCpl Lauterbach to the NCIS office where she was
                               interviewed regarding the complaint. LCpl Lauterbach
                               told the case agent that she and the accused had sexual
                               intercourse on two occasions. She said she did not want
                               to have sexual intercourse with the suspect, but she did
                               not say “no” on either occasion. She also said she told
                               the accused to stop during each sexual intercourse and
                               he stopped, but she felt she had been raped. She told the
                               case agent the first incident occurred in her barracks
                               room while the accused was on duty in late March 2007.
                               She said the second incident occurred approximately
                               2 weeks later in the OIC’s bathroom at the Group
                               Consolidated Administration Center. The case agent
                               prepared a typed, sworn statement. LCpl Lauterbach did

                                          26
DoDIG-2012-003


   Date        Elapsed Days                              Event
           Between Cumulative
            Events
                                not sign the sworn statement on the interview date.

05/11/07         0     46       The case agent interviewed the OIC, who furnished
                                background information on both LCpl Lauterbach and
                                Cpl Laurean, and named other individuals with possible
                                knowledge about the alleged sexual assault.
05/15/07         4     50       In mid-May, the UVA assigned to LCpl Lauterbach
                                telephoned the case agent reporting damage to
                                LCpl Lauterbach's car. The vehicle allegedly was
                                “keyed,” leaving a bad scratch or scratches. According
                                to the UVA, the case agent told her "vandalism. . . did
                                not rise to the level of an NClS investigation" and
                                advised her to report the incident to the Provost
                                Marshal's Office, if she needed a report for her insurance
                                company. The case agent did not pursue the matter as
                                part of the rape investigation.
05/18/07         3     53       The case agent re-interviewed LCpl Lauterbach--no
                                investigative activity occurred during the week between
                                the May 11 and May 18 interviews. In the May 18
                                interview, LCpl Lauterbach clarified information about
                                2006 incident in which she allegedly was involved in a
                                theft. The case agent incorporated information from the
                                May 18 interview in the May 11, 2007, statement, and
                                had LCpl Lauterbach sign the statement as if all the
                                information was derived from the May 11 interview.
05/18/07         3     53       The case agent interviewed the accused, who denied any
                                sexual contact with LCpl Lauterbach and agreed to take
                                a polygraph examination. He also (1) presented two
                                alibis covering the approximate times in which the
                                sexual assaults allegedly occurred, and (2) named other
                                possible witnesses with knowledge about the complaint.
                                He declined to sign a written statement regarding the
                                allegations, but told the case agent he would complete
                                one on his own and provide it to NClS at another time.
05/22/07         4     57       The case agent contacted the accused, who said he had
                                elected to seek counsel and was told not to participate
                                further in interrogations or a polygraph, and not to
                                provide a statement.
05/24/07         2     59       An unknown assailant allegedly assaulted
                                LCpl Lauterbach physically (punch in the face) in the
                                parking lot between building HP-307 and Holcomb
                                Blvd, Camp Lejeune.


                                       27
DoDIG-2012-003


   Date         Elapsed Days                             Event
           Between Cumulative
            Events
05/31/07       7          66  The UVA telephoned the case agent reporting the
                              physical attack on LCpl Lauterbach. The case agent
                              asked the UVA to have LCpl Lauterbach come in for an
                              interview.
05/31/07       0          66  As requested, LCpl Lauterbach went to NClS and was
                              interviewed. She advised the case agent that an
                              unknown assailant, who called her by her first name
                              before the assault, had punched her in the face in an on-
                              base parking lot, causing bruising and swelling to her
                              left jaw. She described the assailant and named LCpl
                              (name redacted) as a person fitting the description. She
                              also identified Cpl (name redacted) as a person she
                              advised about the assault the day it occurred, and the
                              UVA as a person she advised about the assault the
                              following day. LCpl Lauterbach said the assailant was
                              taller and bigger than Cpl Laurean. LCpl Lauterbach did
                              not indicate she thought the assailant was acting for Cpl
                              Laurean.
05/31/07       0          66  The case agent went to the parking lot where the
                              physical assault allegedly occurred, sketched and
                              photographed the scene, and determined there was no
                              video camera in the area that might have recorded the
                              attack. The case agent did not perform any other
                              investigative activity relative to the assault in the
                              parking lot. An Investigative Action report covering the
                              incident was dated Nov 18, 2008, and included in the
                              December 18, 2008, ROI. The incident was not
                              investigated further.
06/27/07      27          93  LCpl Lauterbach contacted NCIS and advised she was
                              pregnant. The case agent had her provide another
                              statement. In this statement, she acknowledged having
                              consensual sexual intercourse with her boy friend 4-
                              5 weeks after her rape complaint, but opined that
                              Cpl Laurean fathered the baby during the alleged rapes.
06/27/07       0          93  The case agent interviewed and obtained a sworn
                              statement from LCpl (name redacted); regarding rumors
                              she had been sexually harassed by Cpl Laurean. The
                              witness stated surprise upon hearing the allegations.
10/15/07     110         203  A Supervisory Special Agent at NCIS Camp Lejeune,
                              NC, transmitted a Report of Investigation (ROI) dated
                              May 18, 2007, to NCIS headquarters. The ROI was
                              labeled (OPEN) Priority II Rape Investigation. Trial
                              Counsel, LSSS, 2D MLG, CALE, was included on the

                                         28
DoDIG-2012-003


   Date        Elapsed Days                              Event
           Between Cumulative
            Events
                                distribution list.

10/18/07         3    206       Trial Counsel, LSSS, 2D MLG, CALE, received the
                                Lauterbach ROI (INTERIM), Priority II Rape
                                Investigation.
10/19/07         1    207       A Supervisory Special Agent at NCIS Camp Lejeune,
                                NC, transmitted an Interim ROI dated October 18, 2007,
                                to NCIS HQ. The ROI was labeled (INTERIM), Priority
                                II Rape Investigation.
12/07/07     49       256       The case agent interviewed Cpl (name redacted),
                                USMC, and (name redacted). (Name redacted) supplied
                                background information about LCpl Lauterbach and
                                described what she knew about the alleged sexual
                                assaults. (Name redacted) described how she had acted
                                as an unofficial mediator between LCpl Lauterbach and
                                Cpl Laurean. She stated that LCpl Lauterbach told her
                                about two separate incidents in which LCpl Lauterbach
                                said she felt sexually harassed when Cpl Laurean tried to
                                have sex with her in their OIC’s bathroom. Cpl (name
                                redacted) said he confronted Cpl Laurean about the
                                barracks room incident and Cpl Laurean told him he had
                                stayed at his own residence the night he had duty and did
                                not approach LCpl Lauterbach about staying in her
                                room.
12/07/07         0    256       The case agent received the duty log book for “HP 308”
                                barracks where LCpl Lauterbach claimed the first rape
                                occurred. The duty roster for Cpl Laurean’s unit
                                revealed that he was scheduled for a duty shift beginning
                                on March 25, 2007. The duty log for the unit indicated
                                that Cpl Laurean was the “HP 308” barracks Duty NCO
                                from 1155 hours on March 25, 2007, until 0730 hours on
                                March 26, 2007. While performing his duty, Cpl
                                Laurean relieved Cpl (name redacted) at 1155 hours and
                                Cpl Laurean was relieved by Cpl (name redacted) at
                                0730 hours. PFC (name redacted) was “HP 308”
                                barracks Assistant Duty NCO for March 25, 2007 to
                                March 26, 2007 and worked from 1217 hours to 0430
                                hours. The log book displayed the initials “CAL” which
                                were entered in half hour intervals until 0030 (DNCO
                                tours barracks). The next time the initials “CAL” appear
                                were at 0305 hours then again at 0530 and hourly after
                                that until 0730. (No further investigative activity
                                occurred until December 17, 2007).
                                        29
DoDIG-2012-003


   Date         Elapsed Days                             Event
           Between Cumulative
            Events
12/17/07      10         266  The UVA notified the case agent that LCpl Lauterbach
                              did not report for duty.
01/08/08      22         288  The Onslow County Sheriff's Office (OCSO) asked the
                              case agent to "begin screening interviews of ... [Lcpl
                              Lauterbach's] friends, counselors and religious personnel
                              to whom she may have confided." Much investigative
                              activity, including many interviews, ensued
                              subsequently in 2008, producing information directly
                              related to the rape allegation.
01/12/08       4         292  LCpl Lauterbach's remains were found burned and
                              buried in a shallow grave in the backyard of Cpl
                              Laurean's off-base residence in Jacksonville, NC.




                                         30
DoDIG-2012-003


Appendix B. Standards
1. Did Responsible Officials Comply with Applicable Requirements in Responding to
   LCpl Lauterbach’s Sexual Assault Complaint?

   a. NCIS Investigation

      (1) DoD Instruction (DoDI) 5505.3, "Initiation of Investigation by Military
      Criminal Investigative Organizations," June 21, 2002. Policy to ensure Military
      Criminal Investigative Organizations are independent, objective, and effective.

      (2) DoDI 1030.2, “Victim and Witness Assistance Procedures,” June 4, 2004.
      Assigns responsibilities and prescribes procedures to assist victims and witnesses of
      crimes committed in violation of the Uniform Code of Military Justice. Chapter 6,
      Procedures,” paragraph 6.2 provides:

         Information to be provided during investigation of a crime. If the victim
         or witness has not already received the DD Form 2701 from law
         enforcement officials, it shall be used by investigators as a handout to
         convey basis information and points of contact. The date it is given to the
         victim or witness is reportable and shall be recorded on the appropriate
         form authorized for use by the particular Service. This serves as evidence
         that the officer notified the victim or witness of his or her statutory rights.

      (3) SECNAVINST 5430.107, “Mission and Functions of the Naval Criminal
      Investigative Service,” December 28, 2005. Sets forth NCIS authority, responsibilities,
      mission, functions and relationship with other Department of the Navy organizations and
      activities. Chapter 7, “Mission and Functions,” paragraph 7C (2)(e), provides:

         Promptly notify affected commanders of any information or aspect of
         investigative, counterintelligence or security activities indicating an actual
         or suspected threat to naval operations, personnel, facilities or other
         assets, or any occurrence which warrants the attention of fleet, component
         or combatant commanders, the DON/DOD leadership or other seat of
         government officials.

      Chapter 7, “Mission and Functions,” paragraph 7C (3), provides:

         Declination of Investigations: NCIS may, at its discretion, decline to
         undertake the investigation of a case. If this occurs, NCIS shall
         expeditiously inform the affect command or activity.

      (4) Navy Criminal Investigative Service Manual 1, “Manual for Administration,”
      December 2006. Establishes investigative policy and doctrine to ensure standardization
      in methods, procedures and techniques. Chapter 25, “Control Agent,” paragraph 25-3.2.
      provides:

                                               31
DoDIG-2012-003


        It is the responsibility of each Special Agent (SA) assigned as control
        agent (case agent) to enter investigative data into applicable NCIS
        reporting systems, from initiation through closure of an investigation or
        inquiry, and to ensure all data is complete, accurate, and a timely
        investigative product in accordance with NCIS policy and procedures.

        Chapter 25, “ROI,” paragraph 25-5.6. e., provides: e. Timeliness
        Requirements.

            (1) Priority (I) - Transmit an ROI (INTERIM) within five (5) business
        days regardless of case category. The same timeline is used for the
        transmission of an ROI (INTERIM) after the completion of the last
        substantive investigative effort when awaiting adjudicative action.

            (2) Priority (II) - Transmit an ROI (INTERIM) within thirty
        (30) calendar days on Director’s Special Interest (DSI) cases and
        7H investigations in which NCIS is the primary investigative agency or
        NCIS is the lead or support agency in a joint death investigation.

            (3) Priority (II) - Transmit an ROI (INTERIM) within sixty
        (60) calendar days on all other case categories.

           (4) Priority (II) - Transmit an ROI (INTERIM) within ten (10) business
        days after the completion of the last substantive investigative effort when
        awaiting adjudicative action.

     Chapter 25, “Report Writing,” paragraph 25-9.1 – 25.9.2 provides:

        Timeliness Requirements. All investigations should be completed and
        reported as expeditiously as possible. Timely reporting is linked to the
        priority level and type of report. ROI (OPEN). (2) Priority (II)-Transmit
        within three (3) business days after the receipt of information, which
        predicates investigation. ROI (INTERIM) (3) Priority (II)-Transmit within
        sixty (60) days on all other case categories.

        Investigative Action (IA). Complete the IA within five (5) business days
        from the day of collecting the information or performing the investigative
        act.

     Chapter 45, “Managing Investigations and Operations,” paragraph 45-2.1, provides:

        NCIS investigations will be conducted in accordance with the President’s
        Council on Integrity and Efficiency/Executive Council on Integrity and
        Efficiency (PCIE/ECIE) Quality Standards for Investigations. The three
        general standards are:

        1. Qualifications. Individuals assigned to conduct investigative activities
        must collectively possess the professional proficiency for required tasks;

                                            32
DoDIG-2012-003


        2. Independence. In all matters relating to investigative work, the
        investigative organization must be free, both in fact and appearance, from
        impairments to independence; organizationally independent; and must
        maintain an independent attitude; and

        3. Due Professional Care. Due professional care must be used in
        conducting investigations and preparing related reports. This standard
        requires a constant effort to achieve quality professional performance and
        includes:

            (a) Thoroughness. All investigations must be conducted in a diligent
        and complete manner. Reasonable steps will be taken to ensure pertinent
        issues are sufficiently resolved, and that all appropriate criminal, civil,
        contractual, or administrative remedies are considered.

           (b) Legal Requirements. Investigations will be initiated, conducted,
        and reported in accordance with all applicable laws, rules, and
        regulations, including NCIS policy and procedures. . . .

           (d) Impartiality. All investigations must be conducted in a fair and
        equitable manner, with the perseverance necessary to determine the facts.

            (e) Objectivity. Evidence must be gathered and reported in an
        unbiased and independent manner in an effort to determine the validity of
        an allegation or resolve an issue. . . .

            (g) Timeliness. All investigations must be conducted and reported
        with due diligence and in a timely manner. This is especially critical
        given the impact investigations have on the lives of individuals and
        activities of organizations.

            (h) Accurate and Complete Documentation. Investigative reporting
        and investigative accomplishments (indictments, convictions, recoveries,
        etc.) must be supported by adequate documentation (investigator notes,
        court orders of judgment and commitment, suspension or debarment
        notices, settlement agreements, etc.) in the case file. . . .

     Chapter 45, “Managing Investigations and Operations,” paragraph 45-2.2, provides:

        In addition to the three general standards, there are four qualitative
        standards that must be addressed if an investigative effort is to be
        successful. These standards are:

        1. Planning. Establishing case specific priorities and developing
        objectives to ensure that individual tasks are performed efficiently and
        effectively.



                                             33
DoDIG-2012-003


        2. Execution. Conducting investigations in a timely, efficient, thorough,
        and legal manner.

        3. Reporting. Reports (oral and written) must thoroughly address all
        relevant results of the investigation and be accurate, clear, complete,
        concise, logically organized, timely, and objective.

     Chapter 45, “Managing Investigations and Operations,” paragraph 45-3.3, provides:

        Investigative plans will be maintained in the case file, in addition to the
        Case Activity Record (CAR), during pendency of the case and may be
        destroyed after one year, along with case agent's notes, if the case file is
        no longer needed as determined. Investigative plans are living
        documents, which will be updated as the investigation continues.

     Chapter 45, “Case Reviews,” paragraph 45-3.4 – 45-3.5, provides:

        The requirement for supervisors to conduct case reviews is well
        established within NCIS. Case reviews are among the most important
        functions performed by supervisors and must be conducted at least every
        30 days. Supervisors may find it necessary to conduct case reviews more
        frequently depending upon case complexity, performance issues, or for
        other reasons, but all open investigative , operational, and source files are
        to be reviewed at least once every 30 days.

        Case reviews must be meaningful and pragmatic in order to maximize
        supervisors’ and case agents’ time. The following specific case review
        guidance is established as NCIS policy:

            a. Case reviews will be conducted face-to-face whenever possible.

           b. Supervisors will personally review case files, investigative plans
        and updates, and accompanying documentation.

            c. Supervisors must be involved in establishing investigative strategy
        early on. In all investigations, supervisors and case agents will develop
        investigative plans within 3 working days.

           d. Investigative progress, or lack thereof, and necessary investigative
        operations steps will be the focus of each review.

           e. Supervisors’ Case Review Records (CRRs) are maintained
        separately from case file and are used to document case reviews.

            f. Supervisors must ensure that case agents have a clear understanding
        of appropriate direction of the investigation/operation/source,
        investigative/operational actions required, and when actions should be
        accomplished.

                                              34
DoDIG-2012-003


            g. Supervisors will document date(s) of supervisory review(s) and the
        specific supervisor who conducted each review in the Case Activity
        Record (CAR). CARs will not address specific supervisory guidance, as
        that information will be confined to the supervisors’ Case Review Record
        (CRR).

            h. Supervisors must follow-up to ensure direction/guidance provided
        during case reviews has been accomplished or is ongoing. Results of
        follow-up action will be documented in supervisors’ CRRs during
        subsequent case reviews.

     Chapter 45, “Case Review Records,” paragraph 45-3.6 provides:

         Case Review Record (CRR)

        The CRR is designed to document case review requirements, and will
        contain details of each review and not merely a reflection that case
        reviews were conducted on a particular date. The CRR is a dynamic
        document that readily chronicles supervisor direction/guidance and the
        planning, programming, verification, and evaluation phases of an
        investigation/operation. A clear understanding should exist between the
        supervisor and case agents regarding direction of the investigation/
        operation, investigative actions required, and timeframe for these actions
        to be completed. The CRR will include a record of all relevant case
        information, in chronological order, so the reviewer knows exactly what
        has been completed during the course of an investigation, as well as what
        has not been accomplished since the last case review. By following up on
        deadlines imposed, case review sessions serve as excellent opportunities
        to discuss investigative strategies and accurately track employee
        productivity.

     (5) Navy Criminal Investigative Service Manual 3, “Manual for Investigations,”
     December 2006. Establishes investigative policy and doctrine to ensure standardized
     methods, procedures and techniques. Chapter 6, “Investigative Theory and Procedures,”
     paragraph 6-4.1, provides:

        Oral statements of witnesses, including victims, or of an accused should
        be reduced to writing immediately after the interview or interrogation.
        While oral testimony may be valid in every respect, the difficulty arises
        later when attempting to prove what was stated. Thus, it is important to
        preserve oral statements by reducing them to writing. It is a standard
        policy requirement in NCIS, whenever credible information is developed
        which may be used in an administrative or judicial hearing, to ask the
        individual at the conclusion of the interview if he/she will furnish a written
        statement, preferably under oath.

     Chapter 6, “Investigative Theory and Procedures,” paragraph 6-4.9, provides:

                                             35
DoDIG-2012-003


        When a victim, witness or suspect provides information, but a statement is
        not reduced to written form, the results will be reported via Investigative
        Action (IA) format. This IA should contain all the details provided by the
        interviewee, including what rights, if any, were advised and why a written
        statement was not executed. In the case of suspects who waived their
        rights in writing, the acknowledgement and waiver of rights form should
        be appended to the IA.

     Chapter 14, “Questioning Techniques,” paragraph 14-9.3d provides:

        Test the validity of a suspect's alibi. If the suspect provides an alibi
        couched in general terms such as, "I was out riding in my car the evening
        the fire was set." Ask the suspect to relate specific details, i.e., times,
        routes, stops, etc.

     Chapter 29, “Assault,” paragraph 29-6.1 provides:

        a. (5) Prepare a crime scene sketch of the scene showing the location of
        victim, assailant, furnishings, items of evidence and other pertinent
        objects. Obtain similar photographic coverage.

        a. (6) If the time of the offense cannot be fixed through questioning of the
        victim, witnesses and suspect (s), the approximate time should be
        determined through circumstantial evidence. . . .

        c. (1) Interview and take statements from witnesses, neighbors, persons
        first on the scene, and other persons in the vicinity of the assault.
        Individual knowledge of the incident including time, place, and
        identification/description of both the victim and assailant should be
        included, as well as information concerning sounds of gunfire, breaking
        glass, ripped screens, breaking doors or furnishings, screams, or loud
        arguments. Identities of other potential witnesses as well as a detailed
        description of the victim's physical appearance and apparent mental state,
        the appearance of the crime scene surroundings (e.g., bullet holes, broken
        windows, cut screens, locked or unlocked doors, lights, broken
        furnishings), and the witnesses’ observations about the extent of the
        victim’s fear engendered by the assailant to do the victim bodily harm
        should be ascertained. . . .

        d. (1) Interrogate and obtain a detailed statement from the suspect,
        including time and place of assault.

        d. (2) Obtain full case prints, fingers and palms, from the suspect and
        obtain photo line-up quality photographs.

        d. (3) Pursue follow-up investigation necessary to corroborate or refute
        an alibi, including interviews and review of documentation (e.g., logbooks,
        motel registrations, jail and hospital records). Conduct appropriate law

                                             36
DoDIG-2012-003


        enforcement agency checks to determine the existence of past criminal
        activity and/or pending arrest warrants. . . .

     Chapter 34, “Sex Offenses,” paragraph 34-4.5.1 provides:

        Interview any witnesses to the offense, and any witnesses who may provide
        information regarding victim's or suspect's activities prior to the incident.

            a. Preliminary Interview- An agent responding to a sexual assault
        complaint has three imperatives that demand immediate attention: First,
        to ascertain the medical condition of the victim. Second, to speak with the
        victim and any witnesses to establish that a sexual assault has occurred.
        Third, to identify, locate, and preserve the crime scene and identify a
        suspect. If a report is delayed by days, weeks, or months, the interview
        should still take place as soon as possible. If a report is delayed, a crime
        scene examination must still be conducted. If for some reason a crime
        scene examination does not occur, it must be documented in the ROI as to
        why one was not done.

            b. Comprehensive Interview-Agents should gather as much
        information as they can about the case before interviewing the victim. The
        agents should contact personnel involved thus far in the investigation such
        as base police and emergency response/medical personnel. . . .

            f. Victims should be provided the VWAP pamphlets that outline the
        rights of victims of crimes. NCIS contact numbers should also be
        provided along with the VWAP pamphlet at the onset of a criminal
        investigation. . . .

           i. Victims will be provided monthly case status updates, in person if
        possible, on their investigation until active investigation is complete, at
        which time command will be responsible for briefing the victim. The
        updates should be given directly to the victim vice a relative or victim
        advocate. NCIS will brief command representatives when the updates are
        provided to the victim. . . .

            k. Crime Scene Examination: Immediate steps should be initiated to
        secure the crime scene, and a detailed search should be conducted as soon
        as possible. Items as clothing, bed linens, rugs, vehicles, etc., should be
        given particular attention as they may contain evidence of hair, broken
        fingernails, semen, or blood.

     Chapter 34, “Sex Offenses,” paragraph 34-4.10, provides:

        e. NCIS will provide all sexual assault victims and appropriate command
        (CO/XO) with a monthly case status update. This update is only to advise
        victims of the case status, specifically if the case is still being actively
        pursued, or if it has been completed and is pending command action or

                                             37
DoDIG-2012-003


        legal proceedings. The update brief is not to offer the victim information
        regarding investigative details or to address discrepancies in information
        previously provided by the victim. The victim should speak directly to the
        victim advocate regarding declination of services. All NCIS sexual
        assault investigations (regardless of title index) will be referred to the
        appropriate command for adjudication determination. Victim updates
        should be recorded on the Case Activity Record (CAR). NCIS personnel
        will ensure that Commanding Officers/SARC’s (or designated personnel)
        know when the victim updates occur. It is important that supervisors
        ensure all sexual assault victims receive a timely update regardless of
        their location. . . .

  b. Sexual Assault Response Program Officials

     (1) DoDI 1030.2, “Victim and Witness Assistance Procedures,” June 4, 2004.
     Assigns responsibilities and prescribes procedures to assist victims and witnesses of
     crimes committed in violation of the Uniform Code of Military Justice. Paragraph 6.1,
     “Initial Information and Services to be Provided to Victims and Witnesses,” provides:

        At the earliest opportunity after identification of a crime victim or witness,
        the local responsible official, law enforcement officer, or criminal
        investigation officer shall provide the following services to each victim
        and witness, as appropriate: The DD Form 2701, “Initial Information for
        Victims and Witnesses of Crime," (enclosure 3) or computer-generated
        equivalent shall be used as a handout to convey basic information and
        points of contact and shall be recorded on the appropriate form
        authorized for use by the particular Service. This serves as evidence that
        the officer notified the victim or witness of his or her statutory rights. The
        following services shall also be provided by the local responsible official
        or designee:

            Information about available military and civilian emergency medical
        and social services, victim advocacy services for victims of domestic
        violence and sexual assault, and, when necessary, assistance in securing
        such services.

           Information about restitution or other relief a victim may be entitled to
        under references (d) and (e), or other applicable laws, and the manner in
        which such relief may be obtained.

            Information to victims of intra-familial abuse offenses on the
        availability of limited transitional compensation benefits and possible
        entitlement to some of the active duty member's retirement benefits under
        10 U.S.C. 1058, 1059, 1408 (reference (g)) and DoD Instruction 1342.24
        (reference (h)).




                                             38
DoDIG-2012-003


           Information about public and private programs that are available to
        provide counseling, treatment, and other support, including available
        compensation through Federal, State, and local agencies.

            Information about the prohibition against intimidation and harassment
        of victims and witnesses, and arrangements for the victim or witness to
        receive reasonable protection from threat, harm, or intimidation from a
        suspected offender and from people acting in concert with or under the
        control of the suspected offender.

           Information concerning military and civilian protective orders, as
        appropriate.

     (2) DoDD 6495.01, “Sexual Assault Prevention and Response (SAPR) Program,”
     October 6, 2005. Applies to all DoD Components, including the Military Departments
     and Combatant Commands, and establishes comprehensive DoD policy on prevention
     and response to sexual assaults. Enclosure 2, “Definitions,” sets forth specific terms and
     definitions and requires their uniform application in policy documents implementing
     DoDD 6495.01 requirements. Defines “Unrestricted Reporting” as a process a Service
     member may use to disclose, without requesting confidentiality or restricted reporting,
     that he or she is the victim of a sexual assault. The victim’s report and any details
     provided to healthcare providers, the SARC, a VA, command authorities, or other
     persons are reportable to law enforcement and may be used to initiate the official
     investigative process.

     (3) DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,”
     June 23, 2006. Consolidates DoD sexual assault program policy under the Under
     Secretary of Defense (Personnel and Readiness), Sexual Assault Prevention and
     Response Program Office (SAPRO), for implementation. Implements policy, assigns
     responsibilities, provides guidance and procedures, and establishes the Sexual Assault
     Advisory Council (SAAC) for the DoD Sexual Assault Prevention and Response (SAPR)
     Program. Enclosure 3, “DoD SAPR Program Requirements and Procedures,”
     paragraph 3.2, provides:

        SARCs, provided that they are regularly appointed DoD military or
        civilian personnel, shall serve as chairperson of a multi-disciplinary case
        management group that meets monthly to review individual cases of
        unrestricted reports of sexual assault, unless this responsibility is
        otherwise delegated by the Military Service.

        Familiarize the unit commanders and/or supervisors of sexual assault VAs
        with the VA roles and responsibilities, using DD Form 2909, “VA and
        Victim Advocate Supervisor Statement of Understanding,” at Enclosure 9
        or a comparable Military Service developed, standardized form.

        Ensure standardized criteria for the selection and training of sexual
        assault VAs complies with Military Service’s specific guidelines. All VA’s

                                             39
DoDIG-2012-003


        must acknowledge their understanding of their advocacy roles and
        responsibilities using DD Form 2909, at Enclosure 9, or comparable
        Military Service-developed, standardized form.

     Enclosure 7, “Case Management for Unrestricted Reports of Sexual Assault,”
     paragraph E.7, provides:

        The multi-disciplinary case management group shall be convened by the
        SARC, or other Military Service-designated authority, on a monthly basis
        to review individual cases, facilitate monthly victim updates and ensure
        system coordination, accountability, and victim access to quality services.
        At a minimum, each group shall consist of the following additional
        military or civilian professionals who are involved and working on a
        specific case:

                 VA
                 Military Criminal Investigator
                 Military Law Enforcement
                 HCPs and Mental Health/Counseling Services
                 Chaplain
                 Command Legal Representative or Staff Judge Advocate
                 Victim’s Commander

        The members of the Case Management Group shall:

            Carefully consider and implement immediate, short-term, and long-
        term measures to help facilitate and assure the victim’s well-being and
        recovery from the sexual assault.

            Closely monitor the victim’s progress and recovery.

     Enclosure 9, “Victim Advocate and Supervisor Statements of Understanding,”
     paragraph 1.a.(6), provides:

        I understand I am expected to attend or participate in monthly case
        management meetings for any case for which I am the assigned victim
        advocate.

     Enclosure 10, Attachment 1, “VA Sexual Assault Response Protocols Checklist,”
     requires that the VA:

        Assess for imminent danger of life-threatening or physical harm to the
        victim by himself or herself (suicidal), by another (homicidal), or to
        another (homicidal).

        Ensure the victim is aware of the actions available to promote his or her
        safety.


                                            40
DoDIG-2012-003


        Serve as a member of the case management group and attend all Sexual
        Assault Case Management Group meetings involving the victim’s case in
        order to represent the victim and to ensure the victim’s needs are met.

        Consult regularly with the SARC on ongoing assistance provided.

     (4) SECNAVINST 1752.4A PERS-61, “Sexual Assault Prevention and Response,”
     December 1, 2005. Guidance for establishing a sexual assault prevention/victim
     assistance program in the Department of the Navy, including developing and maintaining
     a sexual assault reporting system and database for data on all such offenses against
     persons over 18 years old and not married to the alleged offenders. Enclosure 2, “Sexual
     Assault Incident Data Collection Report and Explanation,” establishes guidance on
     maintaining a comprehensive database for all sexual assault incidents reported to
     commands or civilian or military law enforcement. Enclosure 2, paragraph 3b,
     “Reporting Requirements,” provides:

        Sexual Assault Incident Reports should be completed within 10 days of
        initial notification to any Navy or Marine Corps support service or
        command. Submission of the initial report should not be delayed to obtain
        more information.

     (5) Office of the Chief of Naval Operations Instruction (OPNAVINST) 1752.1B,
     “Sexual Assault Victim Intervention (SAVI) Program,” December 29, 2006. Assigns
     responsibility for implementing the SAVI Program in the Navy. Requires all Navy
     commands to be knowledgeable of and to adhere to sexual assault prevention and
     response requirements. Includes a commander’s checklist that prescribes elements for
     meeting command SAVI Program requirements and ensuring effective command
     prevention and response to sexual assault incidents. Paragraph b. 7-9 requires
     Commanding Officers (CO) to implement the victim and support care component of the
     SAVI program by ensuring:

        (7) Victims of sexual assault receive reasonable protection from the
        alleged offender(s). In cases where the victim and alleged offender are
        assigned to the same command, COs should consider relocating the victim
        or offender until the case is legally settled and/or the victim is considered
        out of danger. The CO will consider both the physical and emotional well-
        being of the victim in making this decision. The victim's preference should
        receive primary consideration if at all practicable.

        (8) All unrestricted reports of sexual assault involving active duty victims
        in the command are reviewed by the SACMG on a monthly basis to
        facilitate monthly victim updates and ensure system coordination,
        accountability, and victim access to quality services.

        (9) Victims receive, at a minimum, monthly updates on the status of their
        cases until final disposition. The SAVI Command Liaison will coordinate



                                             41
DoDIG-2012-003


        with the responsible NAVCRIMINVSVC special agent and installation
        SARC to meet this requirement.

     (6) Marine Corps Order (MCO) 1752.5, “Sexual Assault Prevention and Response,”
     February 05, 2008. Implements the DoD Sexual Assault Prevention and Response
     Program in the Marine Corps. Defines and assigns specific responsibilities throughout
     the Marine Corps for sexual assault prevention and response. Applies to all Marines,
     Marine Reservists (active duty/drilling status), and Armed Forces personnel attached to
     or serving with Marine Corps commands, civilian Marines, and contractors the Marine
     Corps employs. Paragraph 1, “Purpose,” establishes Marine Corps policy and guidance
     for addressing specific sexual assault victim needs and related issues--defines sexual
     assault and required reporting procedures; establishes procedures to protect victim
     privacy; establishes a mandatory, standardized sexual assault victim assistance program
     for Service members; and implements a database to track sexual assault trends throughout
     the Marine Corps.

     (7)     Marine Administrative (MARADMIN) Message 175/05, “Sexual Assault
     Prevention and Response Program Department of Defense (DoD) Updates,”
     April 12, 2005. Supplemental policy and guidance to identify key personnel roles and
     responsibilities in the SAPR program. (MCO 1752.5 pre-dated DoDD 6495.01 and
     DoDI 6495.02) Paragraph 3b requires all installation commanders, general court-martial
     convening authorities, and Marine Air-Ground Task Force commanders to establish
     SARC positions in their commands and ensure a sexual assault response capability within
     their areas of responsibility 24-hours a day, 7 days a week. The SARC is the focal point
     for managing responses to all sexual assaults in their commander's area of responsibility.
     The SARC must be appointed in writing and have sufficient seniority to execute SARC
     duties successfully. Commanders have discretion to create unit SARC positions down to
     the battalion and squadron level.

     Paragraph 3c requires all deploying battalions, squadrons, and equivalent size commands,
     training and education commands, and Marine Forces Reserve units to appoint in writing
     at least two UVAs in the Staff Sergeant or higher grade. Marine Forces Reserve
     Commanders must determine sourcing for battalion, squadron, and detachment UVAs to
     ensure coverage in the Marine Corps reserve. UVAs provide information and emotional
     support to deployed marines and attached sailors, students, and drilling reserves who are
     sexual assault victims. To minimize re-victimization, UVAs assist victims through the
     medical, legal, and investigative process. They are also a commander’s resource for
     annual and pre-deployment sexual assault training. In locations where Marine and
     Family Services exist, UVAs defer case management duties to installation victim
     advocates.

      (8) Sexual Assault Incident Reporting Database (SAIRD) User Manual, Version V,
     October 24, 2005. A central repository for incident-based statistical data that tracks
     sexual assault incidents. Used for statistical and analytical purposes. Maintained to
     enhance DoD and individual Service capabilities to analyze trends and to respond to
     Executive, Legislative, and oversight requests for statistical data relating to sexually-
     based criminal and other high-interest incidents.

                                             42
DoDIG-2012-003


             Section 2 lists UVA and VA responsibilities, including responsibility for imputing
     data in the SAIRD. According to the guidance, incidents should not remain in Draft
     status for more than 30 days--“approximately one month is sufficient to gather and input
     the required data and have it submitted for acceptance by HQMC.”

             Section 3 lists SARC responsibilities, including responsibility for ensuring the
     responsible victim advocate correctly inputs required data, and incidents do not remain in
     “Draft status” too long. In addition, the SARC must accept or deny any request from a
     SAIRD user, victim advocate, or installation to transfer a pending case. The SARC is
     also responsible for updating the SAIRD to record the disposition when an allegation is
     resolved.

  c. Command Officials

     (1) DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,”
     June 23, 2006. Attachment 1 to Enclosure 5, “Commanders checklist for unrestricted
     reports of sexual assault,” provides that a victim’s commander will:

        Ensure the SARC is notified immediately.

        Ensure the victim understands the availability of victim advocacy and the
        benefits of accepting advocacy and support.

        Determine the need for temporary reassignment to another unit, duty
        location, or living quarters on the installation of the victim or the alleged
        offender being investigated, working with the alleged offender’s
        commander if different than the victim’s commander, until there is a final
        legal disposition of the sexual assault allegation, and/or the victim is no
        longer in danger. To the extent practicable, consider the desires of the
        victim when making any reassignment determinations.

        Ensure the victim understands the availability of other referral
        organizations staffed with personnel who can explain the medical,
        investigative, and legal processes and advise the victim of his or her
        victim support rights.

        Emphasize to the victim the availability of additional avenues of support;
        refer to available counseling groups and other victim services.

        Attend the monthly case management meeting as appropriate.

        Ensure the victim receives monthly reports regarding the status of the
        sexual assault investigation from the date the investigation was initiated
        until there is a final disposition of the case.

        Ensure the physical safety of the victim--determine if the alleged offender
        is still nearby and if the victim desires or needs protection.


                                             43
DoDIG-2012-003


        Continue to monitor the victim’s well-being, particularly if there are any
        indications of suicidal ideation, and ensure appropriate intervention
        occurs as needed.

        Determine if the victim desires or needs a “no contact” order or a DD
        Form 2873, “Military Protection Order (MPO),” to be issued,
        particularly if the victim and the alleged offender are assigned to the same
        command, unit, duty location, or living quarters.

        Throughout the investigation, consult with the victim, and listen/engage in
        quiet support, as needed, and provide the victim appropriate emotional
        support resources. To the extent practicable, accommodate the victim’s
        desires regarding safety, health, and security, as long as neither a critical
        mission nor a full and complete investigation is compromised.

     (2) OPNAVINST 1752.1B, “Sexual Assault Victim Intervention (SAVI) Program,”
     December 29, 2006. Assigns responsibility for implementing the SAVI Program in the
     Navy. Requires all Navy commands to be knowledgeable of and to adhere to sexual
     assault prevention and response requirements. Includes a commander’s checklist with
     specific elements for meeting command SAVI Program requirements and ensuring
     effective command prevention and response to sexual assaults. Number 8, “Action,”
     paragraphs b.(7) – b.(9), requires the commanding officer to ensure:

        (7) Victims of sexual assault receive reasonable protection from the
        alleged offender(s). In cases where the victim and alleged offender are
        assigned to the same command, COs should consider relocating the victim
        or offender until the case is legally settled and/or the victim is considered
        out of danger. The CO will consider both the physical and emotional well-
        being of the victim in making this decision. The victim's preference should
        receive primary consideration if at all practicable.

        (8) All unrestricted reports of sexual assault involving active duty victims
        in the command are reviewed by the SACMG on a monthly basis to
        facilitate monthly victim updates and ensure system coordination,
        accountability, and victim access to quality services.

        (9) Victims receive, at a minimum, monthly updates on the status of their
        cases until final disposition. The SAVI Command Liaison will coordinate
        with the responsible NAVCRIMINVSVC special agent and installation
        SARC to meet this requirement.

     Enclosure 4, “Command’s Checklist for Prevention and Response to Allegations of
     Sexual Assault,” includes all the essential elements for meeting command SAVI Program
     requirements and ensuring effective command prevention and response to sexual assault
     incidents. Following these guidelines ensures that commanders address all areas and
     provide a timely and sensitive response to each sexual assault incident.



                                             44
DoDIG-2012-003


2. Did Responsible Officials Respond Adequately to Events Following the Sexual Assault
   Complaint to Ensure LCpl Lauterbach’s Safety and Well-Being?

      (1) DoDI 6495.02, “Sexual Assault Prevention and Response Program Procedures,”
      June 23, 2006. Enclosure 5.A1., Attachment 1 to Enclosure 5, “Commanders Checklist
      for Unrestricted Reports of Sexual Assault.”




                                          45
DoDIG-2012-003


Appendix C. Management Comments

                                    UNDER SECRETARY OF DEFENSE
                                              _    O£,EHSI! PENTAGON
                                            WMtllNOTON, D.C. 20301_




   --
   --
                                                     ILI~   31 Wi]


       MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

       SUBJECT: Deputmcnt ofDefeMe Response DoDtG Draft Report (Project No. 2008C0(9),
                "Review of Matten Related 10 !he Sexual Assault and Death of Lance Co!poral
                Mari. Lauterbach, U.S. Marine Corps"

               This is !he Office of the Secretary of Defense response to the DoDtG Dmft Report
       (Project No. 2008C0(9), "Review of Matten Related 10 the Sexual Assault and Death of Lance
       Corporal Maria Lauterbach, U.S . Marine Corps" dated August 3, 2011 . I apprt:oCiate the
       oppommity 10 ~ew and comment on the draft DoDIG report.

              I preliminarily concur with !he reo;:Qmmeodations in the draft report, subject 10 ~ew of
       any chang~ in the final report. Once the final report has been publiMed, I intend 10 wI< the
       $ecretaryofthe Navy with additional actiona, based on yout findings 10 include:

                  Review cum::nt U.S. Marine CorpI $Qual Amlult ~ention and Response (SAPR)
                  Pmgram ill$lruCtions for any policy and program implementation deficiencies and/or
                  discn:pancies with DoD policy.
                  Pmvidc USD (P&'R). description of how the Navy will addres$ the deficiencies
                  and/or discrepancies with an ~timated oomplelion date.
              •   Pmvide to USD (P&'R) byOctobcr 28, 2011, evidence of U.S. Marine CorpI SAPR
                  program oversight, demonstrating that the problems thai existed at the time of the
                  incident have hem rectified II Camp Lejeune and, as applieable 10 other Marine
                  Corp:!! installations.

              In addition 10 these actions, once the final report is Qlmplo:te, I request that you task the
       Inspectors General ofeach Military $enrie<: 10 ~ew. random sampling of open Jexual assault
       investigations to de1ennine if victims of sexual assault ~ being provided with the proper
       follow-up care and protective actions presaibcd by Departmenl and $ervie<: policy.
       Additionally, I req\lC:5t that you task the IG of each Military Services to ~ew a n.ndom
       sampling of closed sexual assault investigations 10 ddennine Qlmpliance with DoD and Service
       policies.

             I lppreciate the oppornmity 10 respond. My point of contact is Major General Mary KIIy
       Hmos. USAF, Dirt>Ctor, Sexual Assault Preventioo and Response Offie<:. Major General Hmog
       may be reached It 703-696-9423, email: mary bcnoS@ ..... sowlumjl.




       ~,


       SECNAV
       CMC




                                                              46
DoDIG-2012-003


                                    T HE SECRETARYOFTHE NAvY
                                        W ".HI N"~ O "   (>C 10580·1000




                                                                                         .tOO 15 2011

         Mr. James L. Pavlik
         Assistant Inspector General for Investigative Policy and Oversight
         Department of Defense Inspector General
         400 Army Navy Drive
         Arlington, VA 22202

         Dear Mr. Pavlik:

                Thank you for the opponunity to comment on the draft repon entitled. "Review of
         Mauers Related to tile Sexual Assault and Death of Lance COllJOral Maria Lauterbach,
         U.S. Marine Corps (Project No. 2008CO(9)." As you know, I have a zero toleronce
         policy regarding SCAua] !lSSBuh by men and wonten in the Department of the Navy
         (DON). SeAual assault is absolutely inconsistent with the values of our country aod the
         honor and integrity of our forces.

                  The DON has made great strides in its effo1"t5 to combat sex ua l assau lt. Shon!y
         after I took ofIke in 2009, ] established the DON Sexual Assault Prevention and
         Response Office (DON-SAPRO), which is headed by a Senior Exccutive who reporlS
         directly to me, thc only such IUTangement tha t eXiSIS within the Department of Defense.
         We have begun many new initiatives since the eve nts which are reponed in the
         Depanment of Defense ]n5pector General (DoD IG) review occ urred. Many of these
         ini ti~tives are deStribed in the enclosures to this letter. Sadly, these initiatives were not
         available at the time of Lance Corporal (LCpJ) Lauterbach's murder, making her death
         even more tragic. I~ opdlllly, the progress thm the DON has accomplished in the sexual
         assault prevent ion and response (SAPR) program will ensure th:u oth er Sailol"$ and
         Marines are not si mil.lfly victimiud.

                That said, it is importam to conduct a careful. objective review of this case, to hold
         individuals account1lble when appropriate, and to continue 10 Jearn from any past
         mistakes. As noted in the draft DoD IG report. a number of DON personnel made cenain
         mistakes in thdr handling of the scx ual assault complaim of LCpl Lauterbach,
         panicularly with respect to the criminal investigation orher co mplaints. I take these
         deficiencies very seriously. as dOCl; the Naval Cri mi nallnvestig~tive Service (NCIS). As
         noted in the enclosure from NCIS. the Direclor of NC IS has already ord.ered that
         measures be taken 10 assess further the shortcomings of tile NCIS personnel who were
         involved in this maller and determine what adverse personnel action, if any. is
         appropriolc in each instance. The Director is also determined to correct expeditiously any
         rem~in ing systemic deficiencies that have becn identified by your draft repM.




                                                           47
DoDIG-2012-003



                With respect to the conunand, I believe that while the command. in hindsight,
         could have paid more allention 10 its reporti ng responsibilities in this case.
         LCpl Lauterbach did receive exccllent support from her victim ad vocates. counselors.
         nod command officials with respect to their immediate response to her complaint.
         LCpl Lauterbach also received continuing care by the victim advocates.

                Enclosed are detailed respon~s from NCIS, DON-SAPRO. nod Headquarters,
         U.S. Marine Corps that address the report' s findings. analysis. and recommendations.
         These responses also highlight the corrective actions that have been or will be taken and
         descri~ the mMy improvements to the DON' s programs that have been implemtnted
         since these events occurred in 2001-2008.

                After a lot of hard work. the DON has an extremely robust SAPR program in
         ploce. We will continue our efforts to ensure that sexual assault is treatt'd lIS the serious
         crime that it is. wid thm throughout the DON. we respond to sexual assault complaints
         promptly, respectfully, and in full compliance with law and policy.

                My point of contact for this mnller is Mr. Paul L Oostburg Sanz, General Counsel
         of the Navy. should )'Oli have noy further questions. He may be eontaClcd at (703) 614-
         1994.




         Enclosures (3)




                                                       2




                                                           48
DoDIG-2012-003




   •                              OEP"RT ~HNT

                             ~ ~V .\L   Ckl .\I' NA L
                                                             O F Til.: NAV",
                                                HUIlQ Y ~M 1 Cl S
                                                        1 .~ V [nI C A1 I V L
                                           lT U ' l[ L[ C . A ~"     ROAn
                                          Q UA,'<TI CQ VA l l ll. ·IIU
                                                                                s n Vl c t




        MEMORANDUM fOR THE SECREtARY                or      THE NAVY

        from:    Director , Naval Crimi nal lnvest igat iva Serv i ce
        To :     Secretary of the Navy

        Subj :   REVIE~   or MATTERS RELATED TO THE SEXUA L ASSAULT AND
                 DEATH   or LANCE CORPORAL MARIA LAUTERBACH, U. S. MARINE
                 CORPS (PROJ ECT NO. 200eC009)

             In response to t he DoD Inspec t or General (DoO I G) memo ran d um
        o f August 3 , 20 11. I am providing t he f o ll owing :



            The dntt DoD IG report identified th irteen arellS o f
        deficiency within the Nava l Crim inal Invest i gative Service (NelS)
       response and its investigation of LCp l Lauterbach ' s ra pe complaint .
       The report ill ust r ates t he breakdown of f undamental invest i ga tive
       practices and superviso r y over sight on t his parti cul ar
       investigati on , and NCIS concurs wit h the investigative
       deficiencies documented in your review.



             000 IG recommends that t he Secretary t a ke correc t ive action ,
       as necessary, with r espect t o of l iclals who the DoD IG idantiliad
       as accountable f or th e regulatory vio lations and pr ocedu ra l
       de fi ciencies descri bed 1n t he report . Clea rly corrective action
       is r equ ired in t his casa , as both a !"leans to affi x individual
       accountabili ty, but more impo r tantly , as a method to ad vance the
       gual i ty of the NCIS se xual assau l t r espo nse and i nvestiga t ive
       capabi li ty ove r a ll.

            With respect to individual accountability . t he NCIS Inspacto r
       General has initiated an internal prof essiona l responsi b ility
       investigation t o assess the actions and pe rfor ma nce of the special
       sgent assigned in the LCpl La uterbach invest i gation. Additionally,
       I have orde r ed and will ove r see a compre hensive management r eview
       o f the NelS f ie ld . regional, and headqu arters response to . and
       oversight of . t he invntlgat l on.




                                                                 49
DoDIG-2012-003


        Subj:    REVIEW OF MAt tERS RELAtED to tHE SEXUAL ASSAULT AND
                 DEATH or LANCE CORPORAL MARIA LAUTER3ACH , U. S. MARINE
                 CORPS (PROJECT NO. 2008C009)

             These efforts , ~hi ch had been held in abeyance pending the
        completion of the crimlnlll trial and ou r re ... !e ... of t he dril ft DoD
        I G report, ~ !ll ensure individulIl responsibIlity lind
        accountability fo r subs t~nd~rd performance or misconduct.

             Also , i mmedia t ely after identifying the proble~s ~ithin this
        inves t iga ti on , NCIS init ia t ed ~ number of organizationa l measures
        des igned t o strengthen ita investiglltive capabili ty on sexua l
        assaults and ensure str onge r oversigh t at the supervisory level in
        order to prevlnt s recurrence of the deficiencies of the type that
        aurfaced during the LCpl Lauterbach i nvestigation.

             The following is a liet of initia tives, measures, and
        acti vi ties implemented or engaged by NCIS alnce January 200e to
        enhance investigative response and capabili:ies 1n all
        investigations.

        NCIS Special Aqent a..io         T~aining    Pr09~"   (iABTP) at the   Fede~al
        La_   Knt o ~ce.ent   T~aining   Center (rLETC)

             The NelS SABTP i s the r equ ired 8 -~eek follow-on couree t o t he
        FLETC Basic Investigator' s Course for ne~ly hired NelS speci al
        agents . The SABTP employs a "continuing cu e puctical exercise
                                                                N



        scenllrio during whi ch specill l agents comp l ete a cr iminlll
        in vestiglltion from initial complaint t hrou gh trial. Since January
        2008 , the practicdl exe r cise has been tha t of a sexual 1I"oult
        complaint and investigation and special agents a re inst r ucted and
        evaluated on investigative steps speciHc to the "ottendO!r-focused"
        model adopted s ubsequent t o th e Lauterbach invest i gation.



              The NelS Training Department at the Federal Law Enforcement
       Training Center developed an advanced course for special agents
       using re eogni~ed subject mIItter experts ISMt) LO present on
       c ur r ent topics for conducting se ~ u.l IIssaul t investigations .
       These SME i nclude research psychologists, toxicologists, and
       victim advocates among oth e r s. This cou r se, pre,ented tw ice a
       yell r , has instruct ed 116 investigators since its inception in
       Jllnua ry 2008.




                                                 2




                                                     50
DoDIG-2012-003


        Subj :   REVIEW 0, MATTERS RELATED TO THE SEXUAL ASSAULT A~D DEATH
                 OF LANCE CORPORAL MARIA LAUT~RaACH, U.S . MARINE CORPS
                 (PROJECT NO. 2008C009)

             Additionally , in response t o a Governmenlal Accountability
        Of fice recommendation , ~CIS Obtai ned 9 ~eat~ i n the 2011 U. S. Army
        CID Advanced Sexua l Assault Investigations cour se , t hus enhancing
        ~CIS's inter-MtIO coopera ti on and capabi lity.   ~CIS intends to
        pursue additional inte r -MelO trai ning courses , when avai lable.

        Nobil. Treinin9 Te.. (MTT) ror Saxuel        Aa •• ult   In••• tiv.tion. ,
        Pro ••C!uti on.

            ~CIS parLJcipales wilh the Navy and Mari ne Corps JAG ·community
        to present a train ing course on sexual assault investigation eng
        prosecution. This annual 16-hour cou r se combines investigators
        and prosecutors 1n a sha r ed learn ing environment to f aci litate
        candid di scussion and teamwork. Presenters include nationa ll y-
        recoqn i ted subject malter e xpert s such as resea r c h psychologists ,
        forendc specialist s , and victim advocates. r Hty NCI S spechl
        agents attended the initial cou rs e in FY I O. MTT presentations are
        schedu led f o r ~orfolk , VA and Miramar , CA In FYll and the course
        is projected as a continuing training opportunity.



              The Cr oss Functiona l Team (C rT1 is a multidisciplinary toam
        compri sed ot DON representatives from Co~nder Naval
        Installations Command , DON SAPRO, Ma'ter Ch ie f Petty Officer of
        the Navy , Chaplain Corp' , Burea u of Modi cine , NCIS, and oth er s ,
        t as ke d wi th process imp r ove~~nt for t he DON Sexual Assaul t
        Pr evention and Response program. NCIS has been a participating
        membe r of the CFT ,ince 2009 . ~C ! S participation wit h the CfT ha,
        inc re ased its i nformation sha rin9 with relevant and appropriate
        DON enti ties within the DON SAPRO enterprise.

        Ne IS Crt.. Reduotion Proqr . .

            The Cr ime Reduction Pr ogram (eRP) is a Depa rtment o f Navy-wide
       crime awareness and personal sa lety education pr ogram. The eRP is
       s pearheaded by NCIS field offices worldwide and unites law
       enforcement and communi ty se rvi ce organitations in a shared goal
       of educatIng the Navy and Harine Corps communi ty abou t co~~on
       threats to their sa fety.




                                            3




                                                51
DoDIG-2012-003


        Subj :   REVIEW Of' MAT'l'ERS RELATED TO 1'HE SEXUAL ASSAULT ANO DEATH
                 or LANCE CORPORAL MARI A LAUTERBACH, U.S. MAR I NE CORPS
                 (PROJ ECT NO. 2008C009)

              Initiated in F'flO, the CRP h~~ !acilit~ted NCIS ' ~b i l1ty t o
        conduct mo~' th~n 250 Se xu~l Ass~ult Awa~eneS3 b ~i efinqs to mo~e
        than 27 , 000 a ttendee~. Sexual Assault Aw~reness is an annual CRP
        caJ:lpaign.



              In 2009 , NCIS conduct ed an agency-wide stand-down requiring
        field off ice senior leadershi p to e xhaustively review a ll ac t ive
        sexual assa ult investigat i ons. The case reviews f ocused on
        identifying deficiencies and immediatoly assigning co~rectlve
        ~ction for the active investigations .     The stand~do wn and ~eview
        ~e i nforced pe~sonal accountability, invest iga tive urgency,
        supervisory engagement, and tho~oughness nece5s~ty to success ful ly
        complete investigations.



            Annually, NCIS ~Tiger Teams~ f rom t he regional di rectorates
        deploy to review f ield office inVestigations to ensure they er'
        conducted and reviewed prope rl y , thoroughly , and in a timely
        manner.



            A r evised , standardized case revie w process utilized by first
        line supervieor e wae implemented in 2009 . The revised process
        emphashed supervisory engagement and ove rHgh t spanning the
        initial response , investigative plan development, and thoroug h
        eoncludon of invest i gations .



             NCTS has historically provided training f or Supervisory
         Special Agents end higher levels of management utilizing the FLETC
         Management Training Pr ogram. However, in Janua r y 2010 , NCIS
       . revised it~ 2 ~weel< Urst ~ l1ne Supervisory Special Agent Training
         Program and implemented a NCl5~9pecific cu r r i cul um focused on
         investigative end operational ove r sight . Add i t io nally, a NCIS-
         specific middle managemen t t ~a ining cou r se has been designed for
        Assistant Special Agents in Charge end Headquarters Divis i on
        Chiefs and is scheduled for its first ite re tion i n 5ept c~e r 2011 .




                                              52
DoDIG-2012-003




        Subj :   REVIEW Of MA!TERS RELATED TO THE SEXUAL ASSAULT AND DEATH
                 Of LANCE CORPORAL MARIA LAUTERBACH , U,S . MA RINE CORPS
                 (PROJECT NO. 2008C009)

            Both courses provide supervisors tools and techniques to
        prope rl y manage i nvestiga tions and to mo r e e f fectively lead
        personnel wi t h an emphasis on individ ual and unit a ccounta bility
        and operational exce llence.

        NCISBQ Envoy   P~oq~   ..

              During 2009 , t he NCIS Cr imi na l I nvestig"Uons Di r ectorate
        deployed ~Hell dquarters Envoy Teams" f amiliar wi th the
        adminis t rat i on of a ll crimina l i nves ti gations to NelS f i eld
        of f ices . The program resea r ched and compared i nvestigati ve trends
        in the field with NCIS establ i shed invest i gat i ve policies and
        pr ocedures . Re sults of the compar i sons were pr ovided to the f ield
        of f ices for investigative and process improvement s.

        Reolgeniled NCI SBO Structure (2010-11)

            The 2010 NCIS reo r gsnization emp has i zed and e nabled t he
        Executive Assis t an t Direc t ors to app ly greater i n fluence and
        oversight on operations and investigations within their
        geog r aph i cal r egions . Recog nizing a n oppor tu nity fo r imp r oved
        oversight of its family and 5e x u~1 Vi olence (f&SV) pr ogram, NeIS
        elevated f &5V program di r ection within t he Headqua r ter! hie rarchy
        ~nd incorporated the Thre~ t Managereent Un i t under its
        respon3ibility . Lastly, t he reor ga n iz at ion enable3 NelS Cr imina l
        Invest i gat i ons Di recto r~ te to better Org~nlze , Molin , T[61n , Equip ,
        6nd ASII8SS its program resou r cea .



             The NelS f amily ' Sexual Violence Pr ogram, which is
       predominan t ly focused on adult sexual "ssault investi gatio ns ,
       obt d ned addi ti onlll f und i ng f r om DON to en hMce i.ts capability to
       respond to allega tions ot sexual assault . Specific pr ogram
       en ha ncementa inc l ude t he hiring o f 11 inve! t i ga tors who wil l be
       per manently placed at field offices and dedicated to sexual
       assaul t investigations . t r aining . and pr evention/awareness br iefs .




                                               5




                                                   53
DoDIG-2012-003



       Subj:      REVIEW OF MATTERS RELATED TO THE SEXUAL ASSAULT AND DEATH
                  OF LANCE CORPORAL MARIA LAUTERBACH, U.S . MARINE CORPS
                  (PROJEC'I' NO. 200BC009)

             Additionally, a research sociologist and an an alyst will be
       hired and assigned within the Criminal Inve$tigation~ Directo rat e
       at NC I S Headquarters. These permane nt person nel wil l inc r ease
       con t inUi ty and stabi lize t he level of e xpertise at the field
       offices while inc reasing snd improving our abili ty to anal yze data .
       aueu trend, within sexual assaul t investigations, and increase
       advanced training opportunities f or investigators .



             The TMU is a 24-hour proactive, cooperat ive law
       en f or cement/behavi ora l sc i ence capabi li ty used to provide
       immediate analysia and assessment o f concerning/ th restening
       behaviora. TMU assist' NCIS field elements and Navy snd Marine
       Corps commands with complex and potentially dangerous
       investigations .

           The TMU pr ovides r isk assessment which place, the
       concer ning/threatening behavior or communication on II continuum of
       potential violence and provides recommendations regarding
       investigative strategies and securi ty -related solutions . Since
       2009, NCIS has increased t he number of trained TMU pe r ,onnel f r om
       2 to ~O.   In August 2011 , ~O ad ditional apecia l agent, will
       receive TMU tuining .

       OODIC Inlttativa 2011

           Curre nt ly , NCIS 1s workin9 ~ith the DoD IG to develop a peer
              process f or 3exual ~'s~ult investigations. Thi, r eview
       r.v i e~
       process will refine and enhance sexua l assault investi9ations and
       ,.,.,.d ',.'o!o, '0'0" ,h.     "C l 0~




                                      /"'" !(ARK D. CLOOKIE




                                           ,



                                               54
DoDIG-2012-003




   '.                                   DEP ... ltT ... ENT 0 ' THE N"'VY
                             . . . UAL "OU ULT . U VCNT, O N ""0 'U~ O NU o ~ . , c ,
                                             'OGO HAY' . I .. ' .. OO N
                                          wU H ,NU O .. OC U ~ . o-I 000




         MEMORANDUM FOR SECRETARY OF 11IE NAVY
                                                                                             Augus123,20 11



         FRO~t:   Jill Vines Loftus, Director SeX\lilI Assault Prevention and Response Offite


        SUBJECT: RcvicwQfMancrs Rciated 10 tm: ScX\laI Assault IUld Dealh ofUuK:c COJPOral
                 Mari~ Lauterbach, U.S. Marine Corps (Project No. 2()()8COO9)


               A~ requcsted in the Memorandum from the Department of Defense Inspector General
        (DoD rGJ dated August J, 20 11, I submit the following responses.

         J. Response to the Findings lind Analysis with ~gards 10 Scllual ASSlIuH Prognun Officials.

           a. The Sexual Assault P('C\'(:ntion and Rcspot\$(\ Office (DON-SArRO) concurs with the
        investigative findings dOl:ummtcd in the Dcpartmml ofDcfcnse Inspector General (DoD 10)
        review.

            b. The draft DoD (G report found that lCpl l Bulerbach was assigned _ Uniformed Victim
        Advocalc (UVA) and a civiJillJl Victim Advocate (VA) on the $lillie day she reported being
        S('xualiy assauhed. The repo rt details !he exeeptionaJ efforts onhe UVA, in panicular, 10 Cll'lu~
        that LCpl LauleTbach received the guidance, lIdvocacy, roWlSeling, and follow-up care !he
        needed to deal wi th the situation which she faced. The ~port found tile victim ad,'ocate,
        romplied ....ith governing requi~mcnts excepl for WiO procedural stcps - one ~ganling the
        timely inpuning of incident data iOIO the Sexual Assault Incident Reporting Database (SAJRD),
        and another regarding attendance at monthly meetiop of the Sexual Assault Case Management
        Group (SACMO).

        2. Response 10 R«OIJImendatioru ....ilh regards to Sexual Assault Program Offidals..

            a. DoD [0 recommends corrective action, I:l occessary, y,ith ",spe<:l to officials identified II!!
        BCroUntable for "'8uJatory violations and procedural deficiencies. Wilh regard 10 lhe ,;ctim
        IIdvocates, and despite the proceduntl deficiencies noted. we ronclude that both show~l great
        dedicalion to their mponsi bilit ies and sought 10 $IIpport LCpl Lauteroaeh 10 the best of their
        abilities. Whil e systemic impro'·emenU are needed 10 address the pt«:edural deficiencies, "''e do
        nol recommend adm inistralive actions again.~t the$c two individuals.

             b. In ",spanK to the overall findinSil of the DoD 10 report. Wi: recommend that a sile visit ~
        conducled at Camp L.ejeum 10 review current SAPR progrnm n:cords and activities. with special
        anenlion to Case: Management Group m«tinas. In addition, ....'e recommend \hat current files of
        lhe Suual Assault Response Coordinalor(SARC) at Camp Lejeune and el5ewt!ere be rf'COIlCi lcd
        ",ilh SAJRD entries 10 ensure complete reponin&. and that SAR~ at Camp LejeW"IC and
        elsev.here be required 10 report !TIOIllhly 01\ the status of. and attendance II, SACMO meetings.




                                                             55
DoDIG-2012-003



        SUBJECT: Reviewof Mnllm Related 10 the Sexual Ana ull and Death of Lance Corporal
                 Maria i.aulerbao;;b, U.S. Marine Corps (Proj~t No. 2008C(09)

        Absence of required SACMG partici pants should be reportoo through the chain of command to
        the Assistant Commandant of the Marine Cotps(ACMCj.

        1. Additionallnfonnation on Rotent and Comprehensive SAPR Program Revitaii:(.lliion efforts.

            8 . In addition 10 these specific correcti\'e rec:ommendatiollS, il is important to note that the
        Department has undertaken 8 comprehensive revitalization of its Sexual A~u1t Prevention and
        Response (SAI'R) program, In September 2009, DON-SAPRO stood·up IIJ B new entily,
        reporting directly to the Secretary, with the goals of achieving n meaJUnlblc reduction ofsc:xual
        l!SSIlulu, improving Service-level SAPR program management, conducting leadership oulreach,
        and providing 8 Commander Tool Kit. DON-SAPRO emphasi1~ Mtaine<llcadcrship
        engagemenl in a consistentlop-oown message and seeks to systemkally improve support for
        both individual victims and command organizations.

           b. In the short time since it wu stood up. DON-SAPRO has undertaken many initiatives to
        strengthen the Ikpanment's efforts to prevent and respond 10 scll'ual 8SIiiIults, rnnginH from
        engaging senior leaders, to sponsorina; Service-level initiatives, 10 building 8 foundation of
        nbj«ti\'e data. DON-SAPRO benefits the Department in many ways. It provides. a single
        Department·level source ofSA PR experti!le, visibility ofService-kvei SAI'R program!,
        consislent policy focus. unique public health persp«tivc, and rtSCan:h capability - all with direc;1
        access to stnior leadership. DON-SAI'RO has a credibility and capability that an: unique v.ithin
        DoD. recognized by other Military Departments, and often consulted specifically by entitiCli of
        the Under Secretary of Defense for Personnel and Readiness. It promotes a consiSlent top-dov.n
        leadership message 10 both Servicn that sexual assaul t is completely unaettptable. DON-
        SAPRO also update! tools for Service·"idc application in training individual Sailors and
        Marines, SUPJlOning scxUIII assault victims. and holding offenders accountable. In ilddi tion,
        DON·SAPRO utili~ ""wly-~reato:d (On.UIU and site visits 10 ehiUJlpion the Sel:rell1ry's mC»aic
        and priority to leaders and stakeholders DON-wide. Resulting interactions an: oftcn, though
        unintentionally, viewed IIlI "the best training we'\'e had.~ Ofdircct importance to the case at
        issue, DON·SAPRO has introduced a significant duta mining capability. thus establishing a
        credible basis for developing new prevention slrlItcgies, highlighting opportunities to refine
        Service-level SAI'R management systems, identifying previously unanticipated needs from
        future dutl systems (along with areas where previously desired duta is not that important). and
        add ressing Congressional conctrM - all "nile side-stepping the long-delayed OSD deployment
        of its Defense Sexual Assault Incident Database.

        4. The follov.ing is an illustrative list ofinitiativn. m&:lllillrCS, and activities implemented or
        engaged by DON-SAPRO to enhance the Depanmenl's SAP R~.

            a. Engage Senior Leaders: DON-SAPRO h:ss undenaken numerous initiatives to engage
        stnior leaders, including hostinS the lirst DON ~xua1 Assau!t Prevention Summit fot senior
        leadm in Scptembcr2009, and holding two DON Sexual Assault Advisory Council (001'1-
        SAAC) SC$sioll$ in Fiscal Year 20 11). DON-SA PRO meets every two weeks with the Under




                                                               56
DoDIG-2012-003



        SUBJEC[': Review ofMat(t,rs Related to the Sexml AMault and Death of Lan.:e ColJlOral
                  Maria Lauterbach, U.S. Marine Corps (proj«t No. 2008CO(9)

        Secretary, with tllll Seeretary regularly. and al~ "'ith the Vice Chief of Naval Operations and
        ACMC every other month. In .ddition, DON-SArRO ensUre$ that SAPR issues are highlighted
        at various kadcrship forums, including the Marine Corps General Officer S)'mposiwn, the
        Marine Corp! Sergeants Major S~mposium, and the Master Chief I'cuy OffICeI' of the Nail)'
        COIIfcrcnce. In addition. the s«retary al so institutionalized a new charter for DON-SAAC in
        March 2011 . The DON-SAAC provides a forum for senior lcad~hip to pcriodieally assess the
        implementation oflhe Navy and Marine Corps SAI'R programs, Icom ib.lut new ini tiatives,
        evaluate resources, and to ensure that DON has till ovcrwthing prevention str1Itegy to reduce the
        incidence of sc Kual as$llult.

           b. Develop New Stakeholder Forurt1ll: Engaging stakeholden is vital to O\lf SAPR missiOll,
        and OON-SAPRO is cOnslantly looki"i for Oflportunities to bring stake!iolders together. New
        forums have included \\'CCkly meetings with the Navy SAPR Exeeuth'cAgenl and the Director
        oflhe Marine and Family Programs Division. the fint-evcr OON-wide Sexual Assault Response
        Coordinator Summit (March 2010). and an eKpaoded follow-on SeJ(ual A$Sault PreH:ntion
        Summit(May 201 I) uncnded by Navy and Marine Corps installation oommanden and regional
        kackrs.

           c. OON-5APRO nam Site Visits: DON-SAPRO \cam site visits oonduc\cd to date have
        included Norfolkfl'idewater, San Diego, Camp Pendleton, tM PlICific North-sl, Gulfport.
        Hawaii, Guanlanamo Bay. Guam. Rota (Spain), Naples (Jtaly), Sigonella (Italy), Souda Bay
        (Gr««), Japan, Bahrain, Kuwait. and Djibouti. A visi t to Camp Lejt'UJle is also already
        planned. Each site visit has typically included meetings "ith re gional sen ior leaders and
        installation commanden: discussions with SARCs, Naval Criminal Investigative Service (NCIS)
        personnel, Judge Advocate!! General (JAG). medical personnel, and charlain,; along with
        faeiliated focus group sessions with junior Sailors and Marines.

           d. Expanding "Outreaeh~ Within and Jkyond OON: DON-SAPRO usn a variety of tools to
        Btl the word out about the Department's SAI'R mission and initiatives, including Hill briefings,
        media interviews. published Navy ~Rhumb Lines~ and Navy "Penonal For" messages, public
        SCfVice announcements, a Marine Corps "Prevention~ video, and personal rtnutri:s by the
        Din:ctor, DON-SArRO IIrJd other SAJ'R representatives at senior leadership ''Cnues and other
        conferences.

           c. ~letl Prevention Trainin&;: Tmining the Fleet is e\lually important to the $UCi:CSS of our
        SAPR mi!!lion. OON-SAPRO has undertaken sexual assault preventiOllllllining W()ugh tlIe
        U.S. Red Forees Com mand SAPR Summit; U.S. Fleet Forces Leadership Md Responder SAPR
        Workshops (I I locations world-wide during FY IO); Fleet Forces Wonshops in FYll applying
        "Bystander Interve ntion~ themes with respect to the pr<:\'Cntion of sc:xlJf.l assault. alcohol
        impllCU, and ~idde (12 loealioJlll world-wide); PIICifie Fleet ~adershi p Workmops; and an
        NCIS Crime Reduction Program featuring lIlIining on sexual assaul t prrvenlion and awarCllCS$.
        Of particular note are "Mentors in Violence PrevellliOll" pilots hdd al four sites (ten


                                                       ,




                                                            57
DoDIG-2012-003



        SUBJECT: ReviewofMallers Related 10 the Se:rual ASIIIult and Death of Lance Corporal
                 Maria Lalllerbach, U.S. Marine Corps (Projecl No. 2OO8COO9)

        presenUilions) that included leadership and lIIilized a trlIin·the-tnlilla' approach, muhing in 209
        facililators Iilal impact 5,900 individual Sailors and Marines.

            f. Responder Training: EMuring thai responders IlIIve Iile knowledge and lools lhal they
        need \0 care for viedms ofsexualllSSaul1 is a core responsibi lilyofDON·SAPRO. We have
        provided responder tnlining in mlll1y forunu, including the Marine Corps ViClim Wilness
        Assistanu Program Confercnees in 2010 and 201 I; the incorporalion of sexual assauh tmining
        inlO all major Naval Justice School courses; the develo~nl of new COUfSCS for JAGs, including
        Senior Counsel Class on Sexual Assauh, ~U1ing Alcohol FlICilitaled &xual Assault, and
        Lilig&ling Sexual Assaull; sponsoring JAGINCIS Mobile Trllining Teams for ;'Sexual Assault
        Investigalion and Prosc<:ution"; expanding NCIS family and Sexual Violence Special Agent
        training at the Federal Law Enforctment Training Center, promoting SARC web-ba.M:d training;
        and 5Upponing lilt Marine Corps Trial Assi5la!lCe Program.

            g. Build an Objective f oundation: DON·SAPRO seeks to build an objective foundation by
         making better use ofcxisting data, and by collecling new data. Efforts 10 date have included a
        fresh reviewofanonYm<lus survey data from 2004 (Navy) and 2009 (DON). This review
        segregated ~serious" sexual assau lts from total incidents, used separale end·SlTCngth data to
        estimate sexual assault risk by individual rank, used separale NC1S data to estimate sexual
        assault reponing rales, and BSseued incidence trends from 2004·2009. In addition, DON·
        SAPRO shJd.ied 1,270 NCIS case synopsa in FY 09·10 Annual Repons to Congress, developed
        categories of clfl:umstanees surrounding sexual assaults, and compared the active duly SIaIUS and
        rank of victims and subjecu. DON·SAPRO also worked closely with the Defrnse Manpower
        Data Center 10 reorganize survey data on sexual assault incidence and reponing at the United
        SIatCS Na"al Academy, restructure other data 10 compare sexual assault rates and trends by
        Service, and refine formats for 2011 focus groups at Service Academies. Efforts 10 collect new
        data are Wldaway as well, including Mspccial focus~ site visits 10 Navy and Marine Corps
        locations geared toward the unique environments presenl al!hose locations as well as impacts of
        state law. working with Na"al Audit Serviceon protoc()ls 10 assess responsiveness of victim
        ~firsl<ontatt" pI'O(:esses operated by Service-level SAPR prognuns, establishing II baseline
        eslimate ofscxual assault incidence, clI"ploring iiII'Condary "social norms~ metrics, and evaluating
        trend results 10 assess Impacts of pilot initiatives, developing I refined web·blded survey tool 10
        explore sexual Issllul1 incidence, rC'poning rates, and "social nortrul~ attitude! and behavior.

            h. Great lakes Demonstration Project: The Oreal Lakes Demonstration Project partnerS
        subject experts (including Centers for Disease Control), Navy senior leadership, and facility
        leaders to develop a package of new strategies for )lfe"coting sexual assaults in post·recruit
        students, I discrete high·risk Sililor population. The expected outcome will be a mellSUfllble
        decrease in sexual assau lt rale and increase in secondary metrH:$ sueh as B}'lilander Intervention
        attitudes and bchaviOfS. Suc«ssful elL-menlS of this Jlfoject will be instituto:<! through the
        Service.




                                                         •




                                                             58
DoDIG-2012-003


        SUBJECT: Review nfMattclS Related to the Sexual Assault and ~ath of Lance Corpontl
                 Maria Lauterbach, U.S. Marine Corps (proje(:t No. 2OO8COO9)

             i. 20 11 DON·Wide Sexual Assault Survey: OON·SAPRO has relined the sexual assault
        JlIfVey ~d in the pallt and is deployed I re vamped survey for 2001. This l'leb-bascd
        anonymous survey of Sailors and Marines IIS9CSSCS SA inddcl)l;e, high.risk groups.
        eirtumstances of SA incidtnts, report ing behavior, "$OCial norms," and bystander inltrvention
        attitudes. The survey will provide standardized emphasis on SA incilicnce, and insighlS directly
        reievanlto SA pn:ventiOf! Sltategies. Senior Service leadmhi p support for participation is
        conveyed through a StructUfed communication plan and site visits.

           j . Promoting Bystander Intervention: Promoting bystander intervention is an area in which
        DON·SAPRO can make I real difference in ensuring that sex ual assaults arc prevented and
        reponed, and that the victilY\!l rt(cived the care they need. Efforts underway to promoIe
        bystander inlcrvention include coordirwtion v.;th the Naval Edocation and Training Command Of!
        the creation ofan updated sexual waull Pft'vention vid«l and continued spo:;ial trainina through
        "Bystander Intervention" Piloo, A pilot program is CUrmltly underway at Pensacola "A"
        schools.

            k. SAPR Program Changes Within the Marine Corps: In addition to the Marine Corps
        participation in many of the initiatives described above, then: hal'e been several notable
        illSljtutionai changes to the Marine COIPS SAPR progmm itself. ~ Marine Corps has bired
        new full·time SAPR program managers at 18 installations to $Cr\'C as the primary victim care and
        reportin8 coordinators for all unill! at 1M illStnllation. In addition, the Marinc Corps SAPR
        Program was realigned within a Behavioral Health organization (along with programs for suicide
        prevention, famity advocacy, substance abuse prevention, and combat operational stress control)
        to leverage f(S()urces, training initiatives, and e.~pertise across o\'crlapping cfforu focused on the
        irxlividual ~Irl\fe and bebavioral health needs of Marines. These efforts have been briefed and
        coordinaled with DON·SAPRO and arc dearly in conWl with Departmental goals as applied to
        the unique Marine CO!p$ cullul\'.




                                                          5




                                                               59
DoDIG-2012-003


                                     DEPARTM ENT OF TilE NAVY
                                   Ht:.I!lQUARTEItS u~m;1) S'I ATU KARIN ECORI'S
                                            :1000 MARINi to~1'S I'I:1ITA(i()H
                                             w.lSH1~!."1'OH. D. C. lOJSIJ. 3000
                                                                                   '' 'D'LVU. UTO
                                                                                   5800
                                                                                   CL
                                                                                   24 Aug 11
        MEMORANDUM FOR TH£ DEPARTMEtn' OF DEFENSE INSPECTOR GENERAL

        F~~:       Di~ector. Marine Corpe Staff
        To:        Inspector General. Departm.ent of De f ense

        Subj :     REVI EW OF MATTERS RELATED TO THE SEXUAL ASSAULT AND DEATH OF
                   LANCE CORPORAL HARIA LAUTERBACH U. S. MARINE CORPS (PROJIi:cr NO.
                   2008C009)

        Ref:       I.) DoD IG l tr of 1 Aug 11
                   (b ) MCO 1752.5 ot 28 Sep 04
                   (0) ALMAR 053/0 4
                   Id) HARADHIN 175/05
                   I.) HARADHtN 615/05
                   It) DoDI 6495,02 of 23 June
                   I,) MCO 1752.5 a of 5 Feb 08             "
        P.n cl :
                   '"   Analysis
                   1') Chronological Timeline of Relevant £Vente


        1 . Per the Conttnandant of the Marine Corps' request, this le tter
        r elponds t o reference (a), the draft Department o f Defense
        Inspect or General'. (000 IG) investigati on report dated 1 August
        2011. Based on t he !lndings provided in the draft investigation,
        viewed under the circumstances BB they were Malin at the time, th e
        Marine Corps does not concur wi th the report's conclus ion that
        compan d leadere and participante involved acted ~i nadequately· to
        Lance Corporal Lauterbach'e a llegat iona. The Marine Corps also
        don not concu~ that colQllllnd leaders and participants hiled to
        remain sufficiently engaged and monitor LCpI Lauterbllch's well -
        being throughout the eexual assault investigative procese, The
        Marine Corps does concur. however, liith the 000 IG" concludon
        that Comba t Logiat i cs Regiment (CLR) 27, in combination with t he
        assignment of and support provided by the Uniformed Vi c tim Advocate
        (WI.) , adequate ly addresaed LCpl Lauterbach'a phys ica l sahty.

        2. The Marine Corps concurs wi th the f ollowing findings,

               II. Upon receiving the complaint trnm LCpl Lauterbach, LCpI
        Laut erbach's Officer in Charge (OICl assigned a W I. and ordered
        Lllurelln to cellse 1111 contact with LCpl Lauterbach;




                                                             60
DoDIG-2012-003


       , Sub:!:    REVIEW OF MATTERS RELATED '1'0 THe seXUAL ASSAULT /\NO DRA'I'H OF
                   LANCE CORPORAL MARIA LAUTERBACH U,S. MARINE CORPS (PROJEC'I' NO.
                   200BC009)

              b. The UVA immediately explained the sexual assault and victim
         advocate p.og.ams t o LCpl Lautedacb and a ccompanied her to NCIS,

              c. NCIS immediately initiated an investigation into the
         dleged sexual assault, wbich cont inued with the help of the CLR-27
         Legal Services Support Cen ter until her unfortunate death/

                d. '!'he UVA Inrlediately accompanied LCpI Lauterbach to the
         Family Coun.eling Cen t er f or se rvi ce. , and the Family Counleling
         Ce nte r scheduled a counseling appointment for the following day,

               e.          , Commanding Office r, CLR-27 a lso immediately
         r eassigned LCpl Lauterbach and excused her from un it events where
         Laurean might be pre sent in order to avoi d poso ible interac t ion
         Mtween LCpl Lauterbach and Laurean.

                  t. In an abundllnce of caution and despite limited evidence,
                    initiated Military Protective Orden (MFa), r enewed them
         upon expi ration, and kept them in ef f ect throughout the
         i nve8tigation until LCpI Lauterbach'l unfortunate death; and

              g . Upon t.Cpl Lauterbach'lI request, the UVA maintained daily
         contact .,ith [.Cpl Lauterbach instead of transferring her case t o a
         civilian Victi", Advocate;

         3. In light of theee tindings, the co_nd responded adequately
         during eve nt s at hand. Therefore, adverse action again8t the
         ,onO",     ",",ifiod '" " ,    "."~~"n""d'




                                                ,




                                                    61
DoDIG-2012-003


                                             ANALYSlS

         Th e following RubpRragrRphl t opieally addreR. t hR i nv •• tigation'.
         finding. and conclu.ion. regarding the Ma rine Corpi:

         1.   Dlea Int ry into   t~   Saxull A•• lult Incident .aporti ng Dat lbaaa
         (SAIRD ) .

                 a. The draft repor t ti~ that the lirat Sexua l Asaaul t Incident
         Reporting Oata.bue (SAIRD ) entry raport on the matt e r appea red on 23
         November ~OO', .ix ~th_ late r than the regulator y reporting date,
         and it c rit icizea the Uniformed Victim Advocate (UVA) for not having
         SA IRD acceaa and failing to enter t he SAI RD entry i n a timely manner.
         ACcording to the r eport t he civilian Victim Advocate (VA) and the
         COtI/IIand ~lI;\l.II l Aanult Ruponle COordina t or (SARC) " ere therefore
         ultimately responalble for ent ering th! assault allegation da ta into
         SAI RD. Ul timately, the report eone lud!a that t he SAIRD data, if
         pr operly recorded, "1tOU1d have alerted the InstaUation $ARC t o a ne"
         unrel tricted lell;ulI a.nul t cale,' " ho in turn 'would have informed
         t he Inl t al lat ion SAR C before conduc t i ng the ~nt hly lexual assau l t
          [Cale Manage~nt Group] Mee t ingl and invite atte ndeel.·

                b. Whi ll the partiea involved ..e re unduly latl ente ring
         info rmati on into SAI RD, the report Imprope rly SpeCUlatel upon the
         Inl t al l a t ion SARC'a Ictionl and any r elul t ing impl et thlt t he
         Ins ta lla ti on SARC's action- mdght have had on thi. matt er . Rather
        t han _pecula t e, i t woul d be rIIOre appro?riate to weigh thi. late data
        entry agains t t he sctions that individ·.I&la took upon re ceiving
         inf ormation from LCpI Lauterbaeh. For ~mpl e, upen r eceiving the
        compla in t f rom LCpI Lauterbach, LCpl Laute rba ch's Offieer io Cha rge
         lOIC) aSligned a UVA and ordered Laurelo to ceale a ll contact wi t h
        LCpl Lauterbach. The OVA expla ined the sexual s ssault and vietim
        a~vocat. programa and accompanied LCpI Lauterbach to NCIS .             ~CIS
         immediately initia te d an inveetigation into the a lleged •• xual
        assault, whi ch continued " ith t he hel p of the Conba t Logietics
        Regi ment -2 1 (CLR -2 1) Legal Servicea Support Ceoter until her
        un fo rtunat e death. The OVA i_diately eccompanied LCpl Laute rba ch t o
        the Family COunseling Cente r for servieea, and the Fami l y Counseling
        cente r schedul ed a cQUnae l ing appointment for t he follo"ing day. upon
        LCp I Lauterbach's r eque. t, the UVA maintained daily eontac t "ith LCpI
        Lauterbach ins teed of trensferri ng hsr t o a ci vi l ian Victim Advocate
        al was standard procedure. These tndl'/iduala' respond'le ca re
        outweigha any specul ative ha rm caueed by • failure t o enter data i nt o
        • cOlllputer daeabasfl. It is difficult t o projflc t how the mere ac t of
        ent e ring the data i nt o SAIRD would have improved upon t he delivery of
        lerviee. to the vietim in this caae,

              c. Ultimately, LCpl Lauterbach's UVA reportfld thfl i neiden t int o
        SAIRD. Despite, the la te entry into SAIRD, LCp l Lauterbach wa s
        provided the .ervicfla and protection called for by the r e.penafl
        program. LCpI Laute rbach wal offered the support services of s


                                                                              Enc!osurfl (1)




                                                   62
DoDIG-2012-003



        civilian victim advocata. Sha declined l uch lupport, but r"'lIlI.in",d in
        cons t lnt contact wi t h he r UVA and received r egular counsel ing and
        aupport from th'" Pamily S"'rvlea Centar prof ealionala throughout t he
        process. The only i nstances whara . he di d not rece ive counseling or
        treatment occurred on the occaai~ where ah'" cancel ed her own
        appointmente.

        l.   The Suud J.. . .ult   K.lpou" Prot ocol o.."kliat.
               a. The dra ft repo rt flnda that               did not use t he SAPl
        chec kliat, yet i t provid",. no aa.",eament of harm beyond mere
        speculation o~ how not using thi s checklist affected the fac t s and
        cl r cumatenc",. In this mat ter .

                b , The report overvalues the checkl ist under the circumatancaa .
        Though often a uletul device, chec kl is t s are an addi ti onal tool that
        augment' t he commander" training, expertenc., and ju~ent. Deapi t e
        the fact t ha t t he Commanda r did not use a chackl!l t, he still ensured
        that LCpl Lauterbach wa l provid",d with a<'!naitiva care, relourcel, and
        support . In thie instance, the UVA wa a                 command
        r epresent ative t o LCpl Lauterba cb. The UVA and civi lian VA , according
        t o the investigation , "gener al ly eompliad with governing r equirement s,
        including completing. VA Sexual Aaaault Reapon le Prot ocol Chec kl iat
        and a VA Job Descri ption checkl i.t." Fu r t her, aa
        r e prelentative, the UVA "providad imm~I at e end ongoing intetvantion
        and aupport t o Laut",rbach,' in t o~ LCpl La ut"'rbacb about her
        r"'por t ing right l , and informed her about advocacy .ervice •.
        Chec ~ li.te are meant to be , af eguard. .  There ia no indication that
        f ailu re to complete the checklt et i n t hil cale cauaed or i ncurred . ny
        of t h'" harms agai nat which the checkill t ie d",eigned t o guard.

        1.              ....d CLI _27' . ""tiona.

                a . Th'" draft r"'port ~inda tha t the UVA wal the only individual
        involv",d in the proce'l to update LCpl Lauterbach .a the i nveltigat ion
        progr.... sed. It h crit i cal of               for hav ing epoken with LCpl
        Lauterbach on only ana occas i on, In wh ic h he told har that her ca.e
        wa e at ill being inveatigat ed. I t alao crlt i ci ~ ea            t or
        alluming tha t othera had updated LCp l Lauterbach on t he case atatus,
        .a well as cri ticizing t he Command SARC for ~li"'vi ng t hat NC IS and
        the Command were handl i ng the il.ue, rel. t ed to lexual alsaulta .
        Laa tl y, i t citel that 'n"'i ther            nor anyone ",I.e In LCpl
        Laut erbach'l cha in of command could reme~ r expla ining tha
        counlel ing, medical , and legal organiz ationa avai l able t o auppo rt har,
        or tha legal and investigative pn)Ceaa ahe would encounter following
        t h'" lexual a8sault report ," AI a reaul e, it conclude. that (1)
                made no effor t t o monitor LCpl Lauterbach ' s wel l-being and tha t
        (l) CLR-p did not r"'1IIIIin "'ngaged wi th LCpl Lauterbach or monitor her
        well - being throughou t the sexual aaaaul t invel ti gativa procel.. The
        inv"'atlgation alao conclude8, 'OV",rall, r"'eponaihl", Comba t Logiltic8

                                              ,
                                                                            £n"O~UIl!   (1)




                                                    63
DoDIG-2012-003



         Regi ment comm. nd off i c i al.   ~elponded   inadequately t o LCpl   Laut e~bac h 'l
         sexual aasau lt compl ai nt, "

                b . H e ~ e once again , the ~epo rt ove~. t ate. the ~elevance of the
        fi nd ings and dr aws inaccu~ate concluaions. Under the eireumat aneel,
                       U5ed t he mQlt effec t i ve t ools ava ilable t o him in order t o
        properly invel ti gat e th e matt er , protect t he pa~tiel involved, and
        ma i nt ain objec ti vi t y . In all eaaell, the law ~equ i ~ee conMnden, li ke
                     , t o remain objec tive and p~ot ect t he cons t i tutiona l rights
        of 1111 pa~tl el, t o include the aecuaed. Command e ~ 1 mui t avo i d t he
        appear ance of having any int erel t ot he r t han an official in t ll rell t i n
        the prosecut ion of the accused 1n order to mai nt ai n the 189al
        aut hor ity t o convene a ClIse, and ul tima t ely hol d offender s account abl e
        for t heir act i ona. Commander l muat 111110 remain i mpart i al i n order t o
        avoid "unlawful command influence" or t he appear ance ther eof - a 189al
        concept that can r eBul t in t he dh mi n a l of all cha rge..
        balanced the lim i ted fact. and evidence ava i lab l e to him and i nit ia t ed
        succeu i Wl Mi li ta ry Prot ec t ive Orden IMPOI renewab le every 90 dayll .
        He iSllued t hese HPO. i n an abundance of eauti on and ke pt the~ in
        e f fect t hroughout the i nvelt igaeion until LCp I Laut erbaeh'.
        unfor tuna t e death. He alao immediate ly reaSligned LCpl Lauter bach in
        orde ~ t o avoid i n ts~action be t wu en LCpI Laut e~ch and Lau~ean.        In
        sum, h. uaed ~a n i n g f ul tools available to him al 8 commande~ to t aka
        reaponllib l e aetion .

               c. The dr af t report al ao ci t el t hat CLR -~1 officiall tock no
        ec ti on on t wo posai bly rel at ed hara ssment incidenta. Yet i t 1110
        acknowl'dges t hat Nel S wal unab le t o li nk ei t her i nc i dent t o t he
        aexual a. saul t complai nt af t e~ l ooking int o both incidenta, and t hat
        t he inve. ti gato~. i nformed                 tha t ther e wa e not hi ng else he
        could do . Wi t hout fur t her j ustificati on, the draf t r e po~t conclude.
        t hat CLR-~1'a ~ ellpone ib ili t y · t o rema i n act i vely invol ved i n t he
        le~al a.Bau lt compl aint extended to t he two addi tiooa l incident. i n
        whi ch LCpl Laut erbach may have bee n v ict imi~ed." However, the draf t
        report aiiO conclude. that LCpl Laute rbach'lI cha in of command
        ·adequat ely addr elled her phYli cal Bat ety a ft e~ t he aexual a.lault
        report ."

               d . The       COrpll concurs t hat CLR-l? adequat e l y addreaaed LCp l
                         K!I ~ ine
        Laute~bach'l   phyaical eatety . The chain of command noti fied NCIS and
        opened an i nvestigation. Withou t eviden ee t o move fo ~a rd toward
        p~ o.ecut ion, there ie li tt l e mor e a commander can do under the law.
                    had MPOa in effee t throughout theee event a and LC~ l
        Lauterbach cont inued he r counseling .

        4.   MO~thly     Ca •• Xanag...nt Qroup (CMG) ••• ting • .


              B. The draft report f i nd! t ha t               t he OVA, t he
        Command SARC, end t he ci vilian VA failed to att end t he mont hly CHG
        meetings. The repo~t aho find. t ha.t CHG COlllllenCed periodic ~e t l ng .
                                                   ,
                                                                                    Enclosure (1)




                                                        64
DoDIG-2012-003



         ai nce 2006, but was not functioning fully i n accordance wi t h DoD
         aexual assaul t pol i cy unti l January ~010. La. t l y, t he r eport fi nds
         tn.t t he Mari ne Corpa Inata llation- East SARC di d not convene monthly
         meet i ngs dur i ng the period cove r ing LCpI ~uterbach'8 sexual asssult
         comp lai nt . Contrary t o t heRe f indi ngR, the report also fi nds t hat t he
         OK; conducted meati ngll i n Oc t ober, Novambe r and December of ~001, and
         tn. t tha Command &ARC attended an Oc t ober 2001 mee t ing, t hough he did
         not discuss LCpl Lauterbach's caee . As a resul t, the r epor t conclu~II
         t ha t the CHG p ~ fealliona ls did not review LCpl Lauterbach's cas e "t o
         help a.au r e her well ·being and r ecove r y following t he l$XuII aBaault."

               b . In light of all the facta and ci~umetances, thill di acrepancy
         must be wei ghed aga ins t ths actiona t aken on LCpI Laught erbach'l
         behal f. The CMG meet ings di d not addr esa Laughts r bach'a call.
         However, al previous l y discu.sed, command represente ti ves did r smai n
         engaged wi th LCpl Lauterbach. AS t he r epor t Indicates, LCpI
         Lauterbach remained i n constant contact wi t h har UVA. and waa pr ovided
         r egular counsel i ng t hrough t he Family Se rv ice Center. The r e il no
         evi dence that theae aame facts, i f briefed at t he CHG , would have
         changed t he situati on at hand .



             a. The IG recommends t ha t the Secr etary of t he Navy "t ake
         correct ive s ct ion, al necessary, wi th res~ct t o off ic i ala whom we
         identi fi ed .. account able for the r egula t ory ,·tol at iona and procedurel
         ~flciencies desc ri bed in t his r eview.      Howe\~r. t he dra ft repor t ia
         unbalanced and t be concluaions do not . uit ill find i ngs.

                b. The i nves tiga t or s .crutinize how the command responded to the
         allegation. wi t hout coneidering the facti and ci r cumstances
         IIurrounding the allegat ion. The report omi t . re l evan t factI that
         c l ar i fy why i ndi vi duala tnvolved t ook pa rti cula r ac ti ons. The command
         Off icials involved respon~ d to the known fact a and circumat ancel
         su rrounding t he allegation without t he benefi t of hi ndsig ht. Fo r
         example, although Laut erbach alleged that she 'felt r aped,' t he
         evidence t ba t she pr ovided to NelS and CLR·27 at tha time evidenc.d
         ne i t her violence nor non·con.ent. Her actual atatements to offi cial.
         indica t ed t hat . on bo th occaeiona, Laurean .tepped aexua l inte r cour ae
         upon her request . Not hing from La uter bach or anything otherwise
         indicated at t he t i me t hat she fel t phyeically threatened by Laurean.
         She never indicated any fear of Laurean t o anybody i nvolved, and
         nobody had Been the t wo individuala together aince the i.suance of
         MPOa. These facts are re l evant becaule they conatitute the gr ound·
         truth lenl t hrough which command repr esentativs. n.d to view th is
         matte r f or reaponae. Under the totality of facta and circumstances
         known at t he ti me, t he command ~ rsonne l acted prompt ly and adequate l y
         with LCpl Laut erbac h" aat ety and wsll· bsing in mind. The re for e,
         adve r se action upon the per aonl i den t if i ed in the draft repor t II not
         war rant ed .


                                                 •




                                                   65
DoDIG-2012-003




                 66
DoDIG-2012-003


         Subj: OOD 10 REVIEW OF MATI'ERS RELATED TO THE SEXUAl ASSAULT AND DEATII OF
         LANce CORPORAL MAR IA LAUTERBACH. U.S. MARINE CORPS (PROJECT NO 2008COOi1)

                                               aupmlogy of Rclevjl/l! Falill:

         U M. r 07: Dateofalleged ~ I.                           7 Aug 1)7: LaulnbacllllleooS cooMelin! and
         , Apr 07: APJI'Oli1llilte date of alleged I1Ipe 2.       tRllmen1.
          II I'ob)' 07: Lauctfbach notiflU OIC of alleged        6 Stp 07: l.allle!bach alleooS counseling 100
         rape. OIC notifies UVA, Company                          lltalmenl.
         Commander. and NOS iniliates inve>ligaliOll.             17 Stpt7: ulIlerblch requeilS penniuion 10
         No SAt"E kil enminauon due 10 Laucerbach',               live off base vi. h<t chain of command.
         late rl:poo1ing.                                         28 Stp 07: MPO reiuued through 23 Dee ()7,
         12 M~r 07: CO. CLR·27 (                                 5 Od 07: uuterback IlteJ'o'ls counseling IIJId
         receives informaiiOIl ri the alleged eveOl'.             treatmenL
         uUlCI't:och moved 10 French Creek JRC. OIC               18 Od 07: NOS repoo1 m:ommends no action
        accompanies Laulerbach to fllDliJy Servke                 unlil DNA Ciln btobtli~. Cl.R·21 believes
        Clnler for coorn;c:ling and foIlow·up scheduU~            thal'" An. 32 in_ligation is appropriate.
         14 filly 07: Medit'lily eSlimated date d                 22 Od 07: a.R·27 submits I requesl for legal
        conc:epIion for Lau~h's prepaocy                         5ef'/ices 10 lhe Legal Scrvkes Support Section.
        (unkDOwo 10 hc:r.the time). Inililll MCCS                CLNC.
        vklim assessment.                                        31 Od 07: l.aurerbai:h re<:aves ap;roV'oIl to
         I' May 07: Cl.R 27   gi_,     brief 011 saual            move inlo base housing due 10 her !lR'gnaocy.
        usauh 10 Group COIIsoIid~led Admin Center                 bout moves into an ofT-base apastmenl withoul
        (OCAC).                                                  !tiling hercommand.
         IS May 07: NaS IJueSUOll5 UWWl, UUI'WI                  5 Nov 07: LaulCrbach recanu: lhal her baby is
        dr:nies ~aving llC~uaJ conUIe!.                          the prOOucI d Loun:II1I 's IlIkged I1Ipe. CLR·27
        22 MIY07: L..aurean invokes Art. 31(b) UCMJ              CO roruinLltS 10 pursue the inI'CSligatinn.
        rights                                                   7 Nov 07: Lauterback alteoos coo~ling and
        23 Mlyt7: Latiletbacf! has aeoonselingsession            treatment.
        with lica.sed Clinieal Social Worker.                    , OK 07: Laulerbach cancels toun$C~ng session
        24 May07: CLR 27 iiSues. JO day MPO.                     and ~l.xIuIes for 17 Dee(J1.
        'Jun 1)7: Laulefbaeh has a COIInseling ~011               140«07: Laultfbacb'$ Sgt roOO1111ilte sees
        with licensedClinkaJ Social Waner.                       Laul~h dri ving 10 work. l.IIuterba..:h leaves
        25 JIID 1)7: MPO reiuuod for90day •.                     the a.R·21 al 1200 d\erthe duly diy.
        17 JWI 07: Lauterbach di5COvers lha1 she is              Laul~h uprrues coocem 10 her OIC lbool
        pregnanlloo provides. new itlllemrnl alleging            LoIlItIl1l" prescnc:e II the pasty and don noI
        lIlal the pregoaocy WilS I result of lhe 9 Apr ()7       Illltnd the pany. I..auleTbath IUI'u a note til.
        event DNA tests ~l this junclure are medically           she CM no longer take Mwine Corps life 100
        threatening to mother and child.                         will be "going away." She mam IIRrge ArM
        'Jill 07: l.auleIbach fails 10 show for                  willKhwa], l.a>t day Laucelbach is seen alive.
        COIInseling SClSion.                                     15 Ott 1)7: Somebody purdlllkS I O!Ie-way bu~
        12 Jill 07: Lau~h" em tlO&ed for                         licketlo EI f'.ISO departing !he woe evening in
        nonal1e~. OiRieian lltemptedou~h                         Lauterbach'. name.
        before closing lhe case.                                 170«07: Laulerbadl inb$Cnl from her
                                                                 C'OUl\$Cling session.




                                                                                                          Eni:12




                                                               667
